Report No. D-2008-104              June 23, 2008




       DoD Implementation of Homeland
       Security Presidential Directive-12
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                      INSPECTOR GENERAL

                                    DEPARTMENT OF DEFENSE

                                     400 ARMY NAVY DRIVE

                                ARLINGTON, VIRGINIA 22202-4704




                                                                                     June 23, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                 READINESS
               UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND
                 INFORMATION INTEGRATIONIDOD CHIEF INFORMATION
                 OFFICER


SUBJECT: DoD Implementation of Homeland Security Presidential Directive-12
          (Report No. D-2008-104)

Weare providing this report for your review and comment.

We performed the audit in response to a request from the Office of Management and Budget that
the President's Council on Integrity and Efficiency review agency processes and help ensure they
are consistent with HSPD-12 and FIPS 201-1. We considered comments from the Under
Secretary of Defense for Personnel and Readiness, the Under Secretary of Defense for
Intelligence, and the Assistant Secretary of Defense for Networks and Information
IntegrationIDoD Chief Information Officer on a draft of the report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Recommendations B.1. and B.2.a. have been clarified in response to management comments.. We
request additional comments from the Under Secretary of Defense for Personnel and Readiness,
the Under Secretary of Defense for Intelligence, and the Assistant Secretary of Defense for
Networks and Information IntegrationIDoD Chief Information Officer as detailed in the
recommendations table on page ii by July 30, 2008.

If possible, please send management comments in electronic format (Adobe Acrobat file only) to
AUDROS@dodig.mil. Copies of the management comments must contain the actual signature of
the authorizing official. We cannot accept the / Signed / symbol in place of the actual signature.
If you arrange to send classified comments electronically, they must be sent over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Donald Bloomer
at (703) 604-8863 (DSN 664-8863) or Mr. Robert Johnson at (703) 604-9024 (DSN 664-9024).
The team members are listed inside the back cover.



                                             /~~
                                             Pau~an~tto
                                             Principal Assistant Inspector General
                                                    for Auditing
                       Report No. D-2008-104 (Project No. D2007-D000LB-0153.000)
                                              June 23, 2008

                  Results in Brief: DoD Implementation of
                  Homeland Security Presidential Directive-12


What We Did                                               What We Recommend
We performed the audit in response to a request              •   Issue comprehensive DoD HSPD-12
from the Office of Management and Budget that the                implementation guidance within 90
President’s Council on Integrity and Efficiency                  days.
review agency processes and help ensure they are             •   Revise and update DoD Directives and
consistent with HSPD-12 and FIPS 201-1. We                       Instructions to incorporate Federal
evaluated DoD business processes to determine                    Information Processing Standards
whether they comply with directives and standards                requirements.
to develop secure and reliable Personal Identity             •   Submit proposed end-state PIV
Verification (PIV) credentials.                                  credential to GSA for conformance
                                                                 testing.
What We Found
DoD is not complying with HSPD-12 requirements,           Client Comments and Our
has not issued comprehensive HSPD-12                      Responses
implementation guidance to DoD Components, and
                                                          The Under Secretary of Defense (Personnel and
has not met HSPD-12 implementation milestones.
                                                          Readiness) agreed with two, partially agreed
DoD policy on physical access controls needs to be
                                                          with two, and deferred on three
updated to comply with HSPD-12 policy objectives.
                                                          recommendations. He has agreed to work with
Specific examples follow.
                                                          other DoD offices in the next 3 months to
  • DoD did not meet Government-wide
                                                          identify milestones to incorporate in the DoD
     milestones for completing background checks.
                                                          HSPD-12 Implementation Plan. The Under
  • Personnel at stations that issue the Common           Secretary of Defense (Intelligence) agreed with
     Access Card cannot electronically verify             three, partially agreed with two, and disagreed
     whether card applicants have initiated or            with two recommendations. He required all
     completed a National Agency Check with               new access control systems to comply with
     Written Inquiries.                                   FIPS 201-1. The Assistant Secretary of Defense
  • DoD displays the full Social Security number          for Networks and Information Integration/Chief
     on the Geneva Conventions credential,                Information Officer disagreed with developing a
     increasing the risk of identity theft.               FIPS 201-1-compliant authentication certificate
  • Components are purchasing equipment that is           within 6 months, citing extenuating circum-
     not compliant with HSPD-12.                          stances. In the absence of obtaining a waiver,
  • DoD is using barcode technology on the                DoD should comply with FIPS 201-1. We
     Defense Biometric Identification System              revised two recommendations to clarify their
     credential that is not equivalent to mandatory       intent. We request comments on the final report
     HSPD-12 security features.                           by July 30, 2008. Please see the
  • DoD’s current PIV credential does not meet            recommendations table on the back of this page
     interoperability requirements and needs to be        for details.
     updated.


                                                      i
               Report No. D-2008-104 (Project No. D2007-D000LB-0153.000)
                                      June 23, 2008

Recommendations Table
Client                           Recommendations           No Additional Comments
                                 Requiring Comment         Required
Under Secretary of Defense for   A.1.b., B.1., B.2.a.,     A.1.a., A.1.c., A.2., B.2.b.
Personnel and Readiness

Under Secretary of Defense for   A.2., B.2.a., B.3.a.1.,   B.2.b., B.3.a.3., B.3.b.
Intelligence                     B.3.a.2.,

Assistant Secretary of Defense   A.3.
for Networks and Information
Integration/DoD Chief
Information Officer


Please provide comments by July 30, 2008.




                                          ii
Table of Contents

Results in Brief                                                      i

Introduction                                                         1

       Objectives                                                    1
       Background                                                    1
       Review of Internal Controls                                   2

Finding A. Implementation of Directive                                3

       Recommendations                                                9

Finding B. Issuance of Implementation Guidance                       15

       Recommendations                                               20

Appendices

       A. Scope and Methodology                                      25
              Prior Coverage                                         26
       B. Guidance on Identification and Access Control              27
       C. Client Comments on the Findings and Audit Response         32
       D. Glossary                                                   53
       E. List of Acronyms and Abbreviations                         55

Client Comments
       Under Secretary of Defense for Personnel and Readiness        57
       Under Secretary of Defense for Intelligence                   67
       Assistant Secretary of Defense for Networks and Information
          Integration/DoD Chief Information Officer                  73
Introduction
Objectives
Our overall audit objective was to determine whether DoD is complying with the
requirements of Homeland Security Presidential Directive-12 to enhance the quality and
security of the identification that Federal employees and contractors use, and to
implement common personal identity verification (PIV) credentials1 that will be strongly
resistant to terrorist exploitation. Specifically, we evaluated whether DoD business
processes comply with directives and standards to develop PIV credentials that are secure
and reliable forms for identifying DoD employees and contractors.

Background
President Bush signed the Homeland Security Presidential Directive-12 (HSPD-12) on
August 27, 2004. HSPD-12 objectives are to enhance security, increase Government
efficiency, reduce identity fraud, and protect personal privacy. HSPD-12 establishes a
mandatory, Government-wide standard for secure and reliable forms of identification
issued by Federal agencies to their employees and contractors. The Presidential Directive
defines secure and reliable identification as being (a) issued based on sound criteria for
verifying an individual employee’s identity; (b) strongly resistant to identity fraud,
tampering, counterfeiting, and terrorist exploitation; (c) capable of rapid electronic
authentication; and (d) issued only by accredited providers. As required by HSPD-12,
the Secretary of Commerce promulgated Federal Information Processing Standard
(FIPS) 201, “Personal Identity Verification (PIV) of Federal Employees and
Contractors,” February 25, 2005, which established minimum requirements for a Federal
personal identity verification system (PIV-I) and detailed technical specifications of
components and processes required for interoperability of PIV cards (PIV-II). On March
2006, the Secretary of Commerce issued FIPS 201 Change Notice 1 (FIPS 201-1),
updating the requirements established by FIPS 201.

Office of Management and Budget (OMB) Memorandum M-05-24, “Implementation of
Homeland Security Presidential Directive-12 Policy for a Common Identification
Standard for Federal Employees and Contractors,” August 5, 2005, establishes timelines
and milestones for FIPS 201-1-compliance. OMB Memorandum M-07-06, “Validating
and Monitoring Agency Issuance of Personal Identity Verification Credentials,”
January 11, 2007, required all Federal agencies to submit their FIPS 201-1-compliant
credential to the General Services Administration for testing by January 19, 2007. The
memorandum announced that agencies would be contacted by their Inspector General to
ensure business processes are being followed to foster the environment of trust needed
for the credentials to be accepted by departments and agencies when deemed appropriate
in implementing HSPD-12.



1
    See Appendix D for definitions of “credentials” and other terms used in this report.


                                                        1
Agencies may elect to implement HSPD-12 through either a transitional or an end-point
credential. DoD is the only agency granted transitional status by OMB because DoD
already has a smart card program. DoD must achieve the end-point credential
specification for all cardholders at some point. OMB established October 27, 2006, as
the date for issuing an initial end-point credential by all agencies; however, OMB has not
established a deadline for DoD to achieve initial operational capability. In early 2007,
DoD began to issue a limited number of transitional credentials to individuals whose
previous credentials had expired. In the quarterly DoD PIV Status Report dated
December 26, 2007, DoD reported it had issued 56 credentials as of March 2007. After
the issuance of our draft report, the April 1, 2008, quarterly DoD PIV Status Report cited
108,778 total PIV cards issued: 83,659 to employees and 25,119 to contractors. DoD had
not completed development of an end-point credential as of May 2008.

The Under Secretary of Defense for Personnel and Readiness is responsible for the timely
implementation of HSPD-12 for the Department of Defense. The Defense Manpower
Data Center (DMDC) has been assigned responsibility for development of a DoD
common access card meeting the requirements of HSPD-12. We visited the DMDC East
facility to determine the stage of HSPD-12 compliance and to review common access
card (CAC) testing, issuance, and infrastructure. To determine HSPD-12 compliance at
installations, we also visited 13 military and Coast Guard installations—all with CAC
issuance facilities. We visited Defense Supply Center-Philadelphia and the Defense
Logistics Agency concerning a photoless ID cardholder.


Review of Internal Controls
We identified an internal control weakness for DoD as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. DoD did not have adequate internal controls to ensure DoD compliance
with the requirements of HSPD-12. DoD has not issued comprehensive HSPD-12
implementation guidance. Further, existing guidance pertaining to various aspects of
HSPD-12 implementation, such as DoD Regulation 5200.08-R and DoD Directive
1000.25, is contrary to HSPD-12 policy. See finding B for specific results of those
weaknesses. Implementing the recommendations made in this report will correct the
weaknesses. A copy of this report will be provided to the senior official responsible for
internal controls in DoD.




                                            2
A. Implementation of Directive
DoD did not meet the milestones approved by the Office of Management and Budget
(OMB) in 2005 for compliance with Homeland Security Presidential Directive-12
(HSPD-12) by 2010. DoD missed these milestones in part because it declared a
“strategic pause” in HSPD-12 implementation from April to December 2007, and has not
met HSPD-12 minimum standards for its transitional program. In addition, DoD has not
provided centralized funding for critical required elements of HSPD-12 implementation.
As a consequence, the intended benefits of HSPD-12 to enhance security, increase
Government efficiency, reduce identity fraud, protect personal privacy, and reduce the
potential for terrorist exploitation will not begin to be realized by the Department until at
least 2012.

Implementation Milestones and Strategic Pause
In June 2005 DoD submitted its HSPD-12 Implementation Plan to OMB for approval.
OMB approved DoD milestones for the Personal Identity Verification (PIV)-I and PIV-II
requirements to support DoD achieving full compliance with HSPD-12 requirements by
April 2010. DoD’s updated January 2008 HSPD-12 Implementation Plan documents the
failure of the Department to meet critical HSPD-12 implementation milestones.
Implementation challenges remain that threaten to further delay full compliance with
HSPD-12 requirements.

DoD attributes the adjustments in implementing HSPD-12 milestones to a strategic pause
taken to update infrastructure for issuing CACs. DoD’s transition to a Web services
architecture has not been as trouble-free as anticipated. In April 2007, DoD declared a
strategic pause in the implementation of the Web version of its issuance infrastructure
until December of 2007. After the strategic pause, DoD recommenced with the upgrade
of its issuance infrastructure to the Web service architecture and full compliance with the
FIPS 201-1, PIV-II requirements. DoD will need a year from the December 2007
reinitiation to upgrade the entire infrastructure. The strategic pause directly affected the
Department’s ability to achieve full implementation of HSPD-12 PIV-I and PIV-II
requirements.

Personal Identity Verification-I Requirements
PIV-I requirements are the minimum requirements for a Federal personal identification
verification system that meets the control and security objectives of HSPD-12, including
personal identity proofing and registration, issuance, and privacy protection.

   1. PIV identity proofing and registration requirements include the initiation of a
      National Agency Check with Written Inquiries (NACI) background check.
      FIPS 201-1 Part 2 requires that when a PIV credential is issued to a Federal
      employee or contractor without a completed NACI background check, the
      credential must be electronically distinguishable from that issued to an individual
      who has completed a NACI background check.


                                              3
   2. PIV issuance requirements state that, at the time of issuance, the PIV applicant’s
      identity must be verified as the person intended to receive the PIV credential and
      for whom the background check was completed.

   3. Protecting personal privacy is a requirement of the PIV system.

Background Checks
FIPS 201-1 requires that employees and contractors who are issued a PIV credential
undergo, at a minimum, a NACI or OPM or National Security community investigation
equivalent background check. The background check must be initiated and the
fingerprint check completed before the issuance of any PIV credential. Further, at the
time of PIV issuance, the issuing official is required to verify the status of the NACI
process for the applicant (completed or ongoing). Credentials issued to individuals
without a completed NACI or the equivalent must be electronically distinguishable from
credentials issued to individuals who have a completed investigation.

Automated Verification of Status
The Director of DMDC issued a memorandum on September 12, 2007, stating that
DMDC is working closely with the Office of the Deputy Under Secretary of Defense for
Intelligence, Counterintelligence, and Security to establish an automated capability to
verify the status of an individual’s background check. However, DoD does not intend to
produce identity credentials that will include an electronic indication of the status of a
NACI. Further, DoD has yet to establish an automated mechanism to verify that all
individuals receiving the PIV credential have at least initiated, if not completed, the
required NACI background investigation.

Deadlines for Completion of Background Checks
Office of Management and Budget Memorandum M-05-24 mandates that agencies:

   •   by October 27, 2007, verify or complete background checks for all current
       employees and contractors, except for agency employees employed more than 15
       years; and

   •   by October 27, 2008, complete background checks for all Federal department or
       agency employees employed more than15 years.

DoD did not meet the OMB deadline of October 27, 2007, for current employees and
contractors. According to DoD’s January 2008 Implementation Plan, as of December 26,
2007, the following numbers of DoD employees and contractors had not completed the
required background checks.




                                             4
        DoD Employees and Contractors With Incomplete Background Checks

                                 Military or Civilian           1,240,214
                                 Contractors                      196,185
                                   Total                       *1,436,399
          *DoD’s January 2008 Implementation Plan noted that these numbers may not be an accurate
reflection of the completed qualifying investigations, but a reflection of data quality in the DoD Joint
Personnel Adjudication System.



Privacy Requirements
HSPD-12 explicitly states that protecting personal privacy is a requirement of the PIV-I
implementation policy. All departments and agencies shall implement the PIV system in
accordance with the spirit and letter of privacy controls specified by HSPD-12 and in
Federal privacy laws and policies. The DoD Geneva Conventions credential for
members of the uniformed services does not comply with HSPD-12 or with Federal
policies and requirements to reduce identity fraud and protect personal privacy.

The continued display of Social Security numbers on the DoD Geneva Conventions
credential is the result of adherence to guidance that does not reflect changes in Federal
policies, technological advancements, or the increased need to protect personal
information. DoD began displaying the Social Security number on identification badges
in 1967. In 2007 OMB instructed Federal departments and agencies to take steps to
reduce the risk related to loss of personally identifiable information. In 2007 OMB
issued guidance to Federal agencies to eliminate unnecessary use of Social Security
numbers and strengthen protection of personal information from loss or theft. In 2006
Congress identified the inherent risk of displaying the full Social Security number on
identification credentials and the need to protect individuals’ right to privacy and reduce
the risk of identity theft. Printing of the Social Security numbers in conjunction with the
individuals’ dates of birth on DoD credentials unnecessarily exposes individuals’
personal privacy information and increases the risk of identity theft.

In response to an FY 2007 congressional request, DoD issued a report to Congress,
“Omission of the SSN from the Department of Defense Military Identification Cards,”
May 23, 2007. In it, the Under Secretary of Defense for Personnel and Readiness
(USD [P&R]) recommended removing the full Social Security number from view on
identification credentials, instead displaying only the last four digits. The full Social
Security number would be retained in the portable data file 417 two-dimensional barcode
and the integrated circuit chip on the credential. No timetable was provided to implement
the recommendation, however, nor did the report specify who was responsible for
implementation. The current appearance of DoD’s Geneva Conventions credential
unnecessarily compromises personal privacy and increases the risk of identity theft and
the potential for terrorist exploitation. DoD should immediately require USD(P&R) to
implement the recommendation to print only the last four digits of the Social Security
number on the Geneva Conventions credential.



                                                      5
Personal Identity Verification-II Requirements
PIV-II requirements are the detailed technical specifications of components and processes
required for interoperability of PIV credentials for personal authentication, access
controls, and PIV card management across Federal departments and agencies. HSPD-12
envisions that when Federal departments and agencies issue and manage the required,
fully interoperable PIV credentials, individuals’ identity can be authenticated
Government-wide, thus increasing the security of Federal facilities and information
systems. DoD did not meet the March 2006 PIV-II initial operational capability
implementation milestone approved by OMB in the DoD Implementation Plan, nor did
DoD meet the October 2006 OMB milestone for PIV-II implementation.

DoD PIV PKI Authentication Certificate
One of the technical specifications for a PIV-II-compliant card is a Public Key
Infrastructure (PKI) authentication certificate. Because of the Department’s strategic
pause, resources allocated to support the development of the authentication certificate
were reallocated. The reallocation has caused a delay in the development, testing, and
issuance of the authentication certificate. As a result, DoD now plans to delay issuance
of the authentication certificate until the third quarter of FY 2008. The current DoD
credential contains three certificates: (1) digital signature certificate, (2) key management
certificate, and (3) card authentication certificate. The DoD Public Key Infrastructure
Program Management Office (PKI PMO), tasked with developing the required PIV PKI
authentication certificate, chose to develop a new, fourth certificate to meet HSPD-12,
FIPS 201-1, and PIV PKI authentication requirements rather than modify an existing
certificate.

The PKI PMO elected to develop authentication certificates using the Federal bridge
policy, despite the HSPD-12 requirement that became effective January 1, 2008, to use
Common Policy object identifiers. DoD has been lobbying since 2006 to have changes
made to FIPS 201-1 so that the Federal bridge policy would be adopted for DoD’s PIV
PKI authentication certificate, rather than working toward meeting the current
FIPS 201-1 Common Policy requirements. The PKI PMO program manager stated that
DoD’s unique infrastructure is too robust to use the Common Policy object identifiers.
DoD is not currently planning to use Common Policy object identifiers in certificates
unless the National Institute of Standards and Technology (NIST) promulgates two
modifications to the Federal Common Policy object identifiers. The requested
modifications to the Common Policy are as follows.

        •   Increase the frequency of issuance of the certificate revocation list
            (CRL). DoD issues the CRL once every 24 hours from 14 certificate
            authorities. The Common Policy’s smaller 18-hour window will place a
            strain on system performance, according to DoD.




                                              6
        •   Shorten the NextUpdate time in the CRL. DoD NextUpdate time is 7 days,
            whereas the Common Policy time is no longer than 48 hours. According to
            DoD, reduction in the number of days for the next update would cause a large
            increase in CRL traffic and potentially consume network bandwidth well
            above what the DoD network is meant to accommodate.

DoD plans to use Common Policy object identifiers in the PIV PKI authentication
certificate only after FIPS 201-1 is revised to meet DoD objections, and estimates that
implementation will take 1 year. The petition for the two changes has been submitted to
the Federal PKI policy authority for approval, but no date has been established for
consideration of the two modifications.

DoD PIV End-Point Applet
Because DoD has elected to maintain its current CAC infrastructure, DoD must develop a
PIV end-point applet to achieve full interoperability with other Federal agencies for the
DoD PIV credential, as required by HSPD-12. The PIV applet, developed by DMDC,
will be the intermediary that should allow readers compliant with HSPD-12 to access the
necessary information on the DoD credential. After the required approval of the DoD
PIV applet by NIST, General Services Administration (GSA) testing of the PIV
credential with all the required components must be successfully completed before the
DoD credential can be considered end-point-PIV-compliant.

DoD Transitional Credential
OMB granted DoD transitional status for implementation of the PIV system in June 2005.
DoD was given until April 2010 for its PIV system to achieve full operational capability
for its approximately 3.5 million PIV credentials. DoD plans to issue PIV credentials to
DoD employees and contractors as their CACs expire. DoD CACs expire 3 years after
issuance. DoD has started issuing some DoD PIV transitional credentials as card
issuance workstations are updated to produce the transitional credentials.

Not all cardholders whose CACs expire receive the DoD transitional credential because
not all card issuance workstations can issue the transitional credential. Some issuance
sites are instructed to exhaust their current stock of noncompliant cards before issuing the
DoD PIV transitional credential.

The DoD PIV transitional credentials do not contain either the required PIV PKI
authentication certificate or the DoD PIV applet. According to DoD, the transitional
credential can be updated at some future time with an approved and tested PIV PKI
authentication certificate and PIV applet through downloads from the DMDC Web portal.
DoD now projects PIV system full operational capability will occur in the summer of
2012. Achieving full operational capability remains problematic for DoD because of
unresolved infrastructure issues and the unavailability of updated workstations required
to issue the DoD transitional and eventually the fully compliant end-point PIV
credentials.



                                             7
DMDC is responsible for updating the centrally funded Real-time Automated Personnel
Identification System (RAPIDS) workstations to RAPIDS version 7.2 to produce DoD
PIV credentials for DoD installations in the continental United States by
December 12, 2008. No schedule for deployment of updated RAPIDS workstations has
been announced for four installations outside the continental United States, including two
in Germany and one each in Djibouti and Greenland. No central funding is planned at
installations for acquisition of equipment needed for the transition to physical access
control systems that are compliant with HSPD-12 and FIPS 201-1. Installation
commanders are responsible for granting access privileges and for funding to update or
replace physical access control systems to bring them into compliance. The Military
Services did not provide any plans, milestones, or dedicated resources to update or
replace physical access control systems to comply with HSPD-12 and FIPS 201-1
requirements.

Conclusion
Inconsistent agency approaches to security of facilities and information systems are
inefficient and costly, and they increase risk to the Federal Government. On
August 27, 2004, President Bush issued a directive to Federal agencies to implement a
Government-wide standard for secure and reliable forms of identification for Government
employees and contractors. Successful implementation was expected to increase the
security of Federal facilities and information systems. The President directed Federal
agencies to promptly implement the mandatory, Government-wide standard for secure
and reliable forms of identification.

DoD has not met key HSPD-12 implementation milestones for completion of background
checks, verification of completed or initiated background checks, or Government-wide
interoperability. Additionally, DoD must modify its current Geneva Conventions PIV
credential to reduce the potential for identity fraud. Unresolved DoD CAC infrastructure
problems continue with no firm date for resolution. As a consequence, the intended
benefits of HSPD-12 to enhance security, increase Government efficiency, reduce
identity fraud, protect personal privacy, and reduce the potential for terrorist exploitation
will not begin to be fully realized by the Department until 2012 or later.


Client Comments on the Finding and Audit Response
Please see Appendix C for complete client comments and audit responses on the finding.




                                             8
Recommendations, Client Comments, and Audit
Response
A.1. We recommend that the Under Secretary of Defense for Personnel and
Readiness:

       a. Submit DoD’s proposed personal identity verification end-point credential
to the General Services Administration for conformance testing and approval within
1 month of completion of Recommendation A.3.

Client Comments. “OUSD (P&R) concurs with this recommendation. OUSD (P&R)
will submit its Common Access Card (CAC) Personal Identity Verification (PIV) end-
state credential to the General Services Administration (GSA) for conformance/
interoperability testing within one month of completion of recommendation A3 (expected
by the end of 2008). OUSD (P&R) fully expects the card to pass all areas DoD has
agreed to support in accordance with the January 2008 DoD HSPD-12 Implementation
Plan.”

Audit Response. Client comments are responsive.

        b. Test the General Services Administration-approved personal identity
verification credential for compatibility with DoD systems before making it
available to DoD employees and contractors.

Client Comments. “OUSD (P&R) partially concurs with this recommendation. As
outlined in the above response, DoD will conduct GSA conformance testing by the end of
calendar year 2008. However, OUSD (P&R) non-concurs with completing GSA testing
before making the credential available to DoD employees and contractors. DoD was
approved by OMB as a legacy card issuer and, as such, is authorized to implement
transitional credentials that can be updated in the future to conform to FIPS 201
specifications. This provides significant benefit with minimal adverse impact to the
operational community. Additionally, DoD has an established testing process with the
Military Services and DoD Components that is monitored by the DoD’s Identity
Protection Senior Coordinating Group (IPMSCG). Prior to being moved to our
operational CAC inventory, all emerging CAC platforms (including DoD’s CAC PIV
transitional and end-state configurations) are evaluated and approved for release by the
IPMSCG’s Test and Evaluation Work Group (TEWG). This group consists of
representatives from Military Service CAC-PKI labs and several DoD Components.”

Audit Response. Client comments are not responsive. OMB Memorandum M-07-06,
“Validating and Monitoring Agency Issuance of Personal Identity Verification
Credentials,” January 11, 2007, requires all agencies to provide to GSA an end-point
credential with their agency’s standard configuration for testing. If GSA finds
configuration problems, the agencies are required to submit their standard configuration
for retesting once the required corrections are made. The OMB memorandum also states


                                           9
that agencies should consider not issuing new credentials until all problems identified in
testing are resolved. A credential that has passed GSA testing may not necessarily be
compatible with all DoD systems. Therefore, it would be counterproductive to issue
credentials that impede DoD operations. OMB required all agencies to begin issuing
compliant credentials by October 27, 2006, either through the services of GSA and the
Department of Interior or by performing this function internally. DoD’s internal
transitional program is not exempt from this requirement. Transitional status does allow
DoD additional time to obtain full operational capability because of the large volume of
compliant credentials to be issued. We request that the USD(P&R) reconsider his
position on the recommendation and provide additional comments on the final report.

        c. Implement within 2 months the recommendation in DoD’s Report to
Congress, “Omission of the SSN from the Department of Defense Military
Identification Cards,” May 23, 2007, to display only the last four digits of the Social
Security number on the Geneva Conventions credential, while migrating toward
completely eliminating the display of the Social Security number on all
identification credentials.

Client Comments. “OUSD (P&R) partially concurs with this recommendation. We note
that the implementation of DoD’s Report to Congress, ‘Omission of the SSN from the
Department of Defense Military Identification Cards,’ May 23, 2007 is not a requirement
of HSPD-12, associated NIST standards, or relevant OMB HSPD-12 guidance.

The Department is executing the policy, procedural and technical steps required to
remove the SSN from DoD ID cards. The truncation of the visible SSN on Geneva
Conventions credential to four-digits is one step in the plan recommended to Congress.
However, this step will take place in a coordinated fashion as the feature is made
available within the issuance software (e.g., RAPIDS) and existing credentials are
replaced after the update is completed. We expect to begin implementing this change
during calendar year 2008.”

Audit Response. Client comments are responsive. We recognize the actions set forth in
the Report to Congress to truncate the Social Security number on the Geneva
Conventions credential to the last four digits.

A2. We recommend that the Under Secretary of Defense for Personnel and
Readiness, in conjunction with the Under Secretary of Defense for Intelligence,
centrally fund the acquisition and installation of HSPD-12-compliant access control
equipment throughout the Department and establish Component-specific milestones
for both acquisition and installation of the equipment.

Client Comments (OUSD [P&R]). “OUSD (P&R) defers on a response to this
recommendation; the responsibility for centrally funding the acquisition and installation
of access control equipment does not fall under the purview of OUSD (P&R).
Responsibility for force protection and physical security standards falls under the
purview of the Office of the Under Secretary of Defense for Intelligence (OUSD (I)).”



                                            10
Audit Response. The client deferred to the OUSD (I) for comments on this
recommendation.

Client Comments (OUSD [I]). “OUSD (I) nonconcurs with the recommendation as
currently stated. OUSD (P&R) has the responsibility for fielding a FIPS 201 compliant
identification credential to Federal Employees and Contractors only, which is expected to
be complete by the end of FY 2012. OUSD (P&R) does not have Research,
Development, Test and Evaluation (RDT&E), acquisition or oversight authority for
access control equipment.

We do not support a central acquisition approach for access control equipment at present,
as we are not staffed to support oversight of an effort of this magnitude, nor is the Air
Force, who is the lead for Research, Development, Test and Evaluation for access control
physical security equipment. See references DoDI [Instruction] 5143.01, Under Secretary
of Defense for Intelligence (USD (I)), Nov 2, 2005 and DoDI 3224.3 Physical Security
Equipment (PSE) Research, Development, Test, and Evaluation (RDT&E), Oct 1, 2007.)

Central acquisition will be problematic for all components, as there are other issues that
would significantly impact this approach. These issues include: Congress provided no
funding to implement this mandate and therefore any centralized acquisition would
require reductions in other Physical Security and Department procurement requirements;
HSPD-12 does not apply to National Security Systems and Special Risk Security
Provisions; ability to adapt existing legacy systems to meet HSPD12; and the install of
access control equipment must be in concert with military design and construction
projects for access control points.

OUSD (I) concurs that any new acquisition and installation of access control equipment
throughout the Department must conform to the mandates of HSPD-12 and associated
OMB policy for interoperability. This stipulation has been included in formally staffed
draft policy, Directive Type Memorandum 08-004, Policy Guidance for DoD Access
Control, which is pending USD (I) signature as of this submission.”

Audit Response. Client comments are partially responsive. We agree with the client
that any new acquisition and installation of access control equipment throughout the
Department must conform to the mandates of HSPD-12 and associated OMB policy for
interoperability. HSPD-12-compliant access control equipment will allow secure and
rapid electronic verification of a credential holder’s identity.

Electronic authentication of identities is essential to realizing the full security benefits of
HSPD-12 requirements. The procurement and installation of HSPD-12-compliant access
control systems is crucial to meeting this requirement. On April 9, 2008, the
congressional Subcommittee on Government Management, Organization, and
Procurement held a hearing on “Federal Security: ID Cards and Background Checks.”
HSPD-12 was the major topic of discussion.




                                              11
At the hearing, the Government Accountability Office (GAO) reported that most agencies
were not using the electronic authentication on the PIV credentials and had not developed
an implementation plan for these capabilities. One reason for this, according to GAO, is
that agencies anticipate having to make substantial financial investments to fully
implement HSPD-12. Committee members were greatly disturbed to learn of the practice
of using the HSPD-12-mandated PIV credentials as flash passes. Members called the
practice a waste of resources and asked whether additional funding is required for full
implementation and use of the HSPD-12 credential. The full realization of the HSPD-12
goal to enhance the protection of DoD installations and facilities resources should be a
DoD priority.

We request that the USD(I) reconsider his position and provide additional comments
regarding the most appropriate mechanism to fund acquisition and installation of the PIV-
compliant access control equipment throughout DoD.

A.3. We recommend that the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer develop the mandatory
Public Key Infrastructure authentication certificate that complies with FIPS 201-1
requirements to use Common Policy object identifiers for cross-agency verification
of cardholders’ identification within 6 months.

Client Comments. “Recommend that the DODIG remove the recommendation A.3
from the final report based on the extenuating and mitigating circumstances surrounding
this FIPS 201 requirement. DoD PKI PMO has endeavored, in good faith, to comply with
all FIPS 201 requirements. Current plans, as stated in the January 2008 update to the
DoD HSPD-12 Implementation Plan [JANDODPLAN], indicate that the PIV_Auth
certificate will be instantiated on the DoD PIV credential as soon as technically possible.
Lack of compliance with the Common Policy OIDs [object identifiers] does not affect the
interoperable use (cross-agency verification of cardholder’s identity) of the CAC with
either DoD or other Federal Agency physical or logical systems.

Comment: Disagree with this recommendation A.3. The recommendation does not
recognize or consider the extensive mitigating or extenuating circumstances explained in
the January 2008 update to DoD HSPD-12 Implementation Plan [JANDODPLAN] nor
does it show consideration of the reported work accomplished by the DoD PKI PMO to
comply with the FIPS 201 requirement for instantiation of a PIV Authentication
certificate (PIV_AUTH). The DoD PKI PMO has planned for the deployment and is
testing the issuance of a PIV_AUTH certificate and has estimated beginning the issuance
of this certificate on the DoD PIV credential in 3QFY08 [JANDODPLAN]. Those plans
are aligned with but contingent on fielding of another version of the RAPIDS issuance
software. The DODIG recommendation does not consider the lack of adequate memory
available on the current CAC crypto module, the availability of the cryptomodules with
the necessary storage capacity, necessity for performance testing on issuance and use or
examination of the operational impacts of using RSA [Rivest, Shamir, and Adleman]
2048 end entity certificates. The DODIG recommendation does not consider that the
DoD PKI PMO has reported, for several years, to OMB and the Federal PKI Policy



                                            12
Authority (FPKI PA), the risks of changing DoD PKI CA operations to conform to the
specified Federal Common Policy requirements. DoD PKI PMO has been endeavoring to
work with the FPKI PA to make mutually acceptable changes to the Federal Common
Policy Certificate Policy (CP). The DODIG recommendation does not recognize or
consider in extenuation that the DoD PKI PMO has been very proactive about informing
the FPKI PA and NIST about the operational challenges full compliance with FIPS 201
represents to DoD.”

Audit Response. Client comments are not responsive. We recognize there are
complexities involved in fielding the FIPS 201-1-compliant credential. Although the
client states that the current CAC does not accommodate the memory available on the
current CAC crypto module, there are cards available that will accommodate memory
requirements. Further, NIST officials have stated that for interoperability it is important
that the PIV Authentication Key asserts the PKI Common Policy object identifiers. We
request that the ASD(NII)/CIO provide additional comments on how he will meet FIPS
201-1 requirements.




                                             13
14
B. Issuance of Implementation Guidance
DoD Components are attempting to address security and personnel identification
concerns in an ad hoc manner. Formulation and issuance of HSPD-12 implementation
guidance were not priorities for DoD because senior management chose to establish and
implement less stringent access control requirements rather than HSPD-12 PIV-I
standards. DoD will not realize increased security and efficiencies until DoD
Components are provided with comprehensive HSPD-12 implementation guidance
mandating the issuance of secure and reliable credentials and the use of updated,
compliant access control systems at DoD installations.

DoD Component Implementation Efforts
HSPD-12 requires that access to Federal facilities or information systems be granted to
Federal employees and contractors based on secure and reliable forms of identification
that meet the Federal standard established by the Secretary of Commerce. FIPS 201-1
contains the minimum standards that agencies are to implement to comply with HSPD-12
requirements. DoD has not issued comprehensive implementation guidance that
incorporates the minimum standards, leaving DoD Components without specific
guidance to address HSPD-12 requirements for security and personnel identification.

Without official guidance, Components have improvised. For instance, background
checks vary by Component; Components have purchased noncompliant HSPD-12
equipment; a DoD installation has issued a photoless identification credential; and
Components have been authorized to issue Defense Biometric Identification System
(DBIDS) credentials instead of PIV credentials.

Background Checks
DoD Components have not met NACI background check requirements. Because of the
large number of Army personnel requiring NACIs and the associated cost, the Army is
considering requesting a waiver of the immediate HSPD-12 mandated NACI background
checks until the members’ current CAC cards expire or individual are due for periodic
reinvestigations. USD(P&R) issued a memo on March 9, 2007, expanding CAC
eligibility to include foreign national partners who have been properly vetted and who
require access to DoD facilities or information systems. This memo establishes the
vetting requirement when an international security agreement is in place. However, the
guidance does not address a vetting process for foreign nationals requiring a CAC for
access to DoD installations and information systems in countries where no international
security agreement has been established, such as Afghanistan and Iraq. One Air Force
base does not require contractors that have only physical access to the installation to
receive background checks unless the contractors are first line supervisors. One Defense
agency required contractors receiving a CAC to undergo only a NAC. During our
review, a Defense Agency Chief of Personnel Security issued an agency-wide e-mail on



                                           15
June 19, 2007, requiring contractors receiving a CAC to undergo a NACI background
check.

Equipment Purchases
One Army installation purchased several card readers without ensuring they complied
with HSPD-12. An Air Force installation was in the process of purchasing equipment
that was not on the GSA Approved Products List as required by OMB; however, when
made aware of this, officials at the Air Force installation stopped procurement to ensure
they purchased only products that were on the GSA Approved Products List.

Photoless Identification
On February 4, 1999, the Commanding Officer at the Naval Support Station (now Naval
Support Activity) in Philadelphia, Pennsylvania, issued a waiver for a photo
identification badge to a Defense Logistics Agency (DLA) employee working at Defense
Supply Center-Philadelphia (DSCP) who objected for religious reasons to having his
photograph taken and displayed on the identification badge. Guidance is required on
evaluating the legitimacy of requests that deviate from established access control policy.

DBIDS Credentials
DoD has authorized Components to issue a DBIDS card to employees and contractors
who require only routine (180 days or greater) physical access. This practice deviates
from HSPD-12.

DoD HSPD-12 Policy and Guidance
Formulation and issuance of HSPD-12 implementation guidance were not priorities for
DoD senior management. DoD Components’ problems with implementation can be
attributed to the lack of comprehensive guidance. After issuing proposed HSPD-12
implementation policy for coordination in April 2006 and not reaching consensus among
DoD Components, DoD established a working group to develop comprehensive guidance
for implementation of HSPD-12, but the group has made only limited progress.
Meanwhile, DoD senior management chose to establish and implement less stringent
access control requirements rather than those established by HSPD-12.

Formulation of Policy
On April 24, 2006, the Defense Human Resource Agency (DHRA) sent out a request for
coordination on proposed HSPD-12 implementation policy. DHRA, the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief Information
Officer (ASD [NII]/CIO), the Under Secretary of Defense for Acquisition, Technology,
and Logistics (USD [AT&L]), DMDC, and USD(I) could not agree on the proposed
HSPD-12 implementation policy. As a result, implementation languished until
August 27, 2007, when the USD(I) Physical Security Directorate requested an HSPD-12
Strategy Working Group meeting with DHRA, ASD (NII/CIO), USD (AT&L), and
DMDC group members to complete implementation guidance. As of March 2008, DoD
had not issued DoD HSPD-12 implementation guidance other than updates to DoD
Regulation 5200.08-R for physical access security.


                                            16
Issuance of Guidance
DoD Regulation 5200.08-R does not address specific background check requirements or
equipment purchases from the GSA Approved Products List. Furthermore, it is
inconsistent with HSPD-12 because it allows DBIDS and other forms of identification
that are not compliant with FIPS 201-1.

NACI Requirement
DoD Regulation 5200.08-R states that “A National Agency Check with Inquiries or
equivalent national security clearance National Agency Check with Local Agency
Checks including Credit Check is required for permanent issuance of the credential.”
This statement leaves open such questions as which DoD entity should pay for the
background checks for contractors and what kind of background check is required for
foreign nationals.

Approved Products List
To ensure Government-wide interoperability, DoD must acquire products and services
that are compliant with FIPS 201-1 and included on the GSA Approved Products List as
required by OMB. In some instances, DoD Components have acquired products that are
not on the GSA Approved Products List. DoD has not issued any guidance to the
Components requiring use of the Approved Products List.

DBIDS Credential and Physical Access Control Systems
OMB instructed agencies to be careful not to develop policies that contradict HSPD-12
standards for identity proofing and issuance of credentials. HSPD-12 standards mandate
that all Federal employees and contractors requiring routine access for 180 days or longer
receive a PIV-compliant credential and undergo a NACI or equivalent background check.
DoD Regulation 5200.08-R authorizes personnel requiring only routine physical access
to receive a DBIDS credential and undergo the less rigorous NAC. Granting routine
access to DoD installations to personnel who have only a NAC background check does
not fully comply with the HSPD-12 policy objective to enhance security and protect
physical and human capital assets on DoD installations.

According to DoD Directive 1000.25, DBIDS is a fully configurable force protection
system and serves as a physical access control and critical property registration system.
Yet the system does not meet the minimum standards of FIPS 201-1 to verify the claimed
identity of individuals seeking physical access to Federal Government facilities. DoD
Components are required to purchase and maintain this physical access control system
through DMDC. However, DBIDS uses card readers and scanners that are not on the
GSA Approved Products List as required by OMB.

Neither the DBIDS system nor the card is configured to operate with HSPD-12 security
features such as PKI certificates, the Card Holder Unique Identifier, and biometrics
embedded in the integrated circuit chip of the credential. Further, the use of barcode
technology on the DBIDS credential does not enhance security because the barcode, a
static physical card feature, cannot deter fraud, prevent counterfeiting, or protect personal
privacy. According to comments from the Smart Card Alliance on a report by the


                                             17
Department of Homeland Security, DHS-2006-0030, May 7, 2007, barcode technology is
not secure and not adequate to meet Federal security and privacy requirements. DBIDS
does not meet the FIPS 201-1 minimum standards to enhance security, increase
Government efficiency, and protect personal privacy.

Of the 16 installations we visited in the continental United States, 6 formerly used or
continued to use DBIDS as their physical access control system for individuals requiring
only physical access. Four of the six installations used barcode technology, without
biometrics, to authenticate the identity of the credential holder before granting access to
the installation. The fifth, an Army installation, discontinued the use of DBIDS because
the maintenance of the system was too expensive and the system did not perform as
required. The sixth, an Army installation, used the DBIDS access control system but not
the DBIDS card, which is not compliant with HSPD-12 standards.

Additionally, officials at one of the four installations, a Navy installation, stated that their
DBIDS equipment is deteriorating and that they did not have the funds to maintain it.
Instead of scanning the DBIDS credential, they use it as a flash pass.

Photo Identification Requirements
FIPS 201-1 requires that PIV credentials be issued only to individuals whose identity has
been verified and whose background investigation is either on record or initiated.
Identity verification for the PIV credential requires two forms of identity, including at
least one valid State or Federal Government picture identification. The PIV credential
requires a photograph showing the full frontal pose from top of the head to shoulder and
placed in the upper left corner of the credential. Waivers to FIPS 201-1 are not allowed.

On February 4, 1999, the Commanding Officer at the Naval Support Station (now Naval
Support Activity) in Philadelphia, Pennsylvania, issued a waiver to permit a photoless
identification badge for a DLA employee working at DSCP who objected for religious
reasons to having his photograph taken and displayed on the identification badge. In
June 2005, the Naval Support Activity, Philadelphia reissued the DSCP employee a
photoless Navy identification badge that did not comply with existing Naval Support
Activity Instruction 5530.1. In 2006 DLA, without proper approval, provided the DSCP
employee with an alternate method to access DoD networks and information systems,
violating DoD and DLA policy. DLA revised its certificate practices policy to allow an
individual without photo identification to access DoD networks in February 2008. DoD
has not confiscated the photoless identification because of concerns about litigation under
the Religious Freedoms Restoration Act. We discovered that the DSCP employee with
the photoless identification used different Social Security numbers for a background
investigation and logical access to DoD information systems. Therefore, we made a
referral for investigation.

DoD has not approved guidance that prohibits issuance of photoless identification
credentials, nor has DoD established a process to evaluate waiver requests. The issuance
of a photoless identification card establishes a precedent that is contrary to the goal of



                                              18
HSPD-12 to enhance security and could expose DoD installations and information
systems to unauthorized access and potential terrorist exploitation.

Conclusion
The elimination of multiple forms of identification used to gain access to Federal
facilities where there is potential for terrorist attacks is central to Federal Homeland
Security policy to promptly field a secure and reliable Government-wide identification
credential. The identification credential will allow security personnel and information
systems to authenticate the identities of Federal Government employees and contractors
before authorizing physical or logical access to Federal installations and information
systems. DoD has not issued the necessary guidance to DoD Components to ensure that
they are implementing the requirements of HSPD-12, which are designed to increase
security for DoD installations and information systems, protect the privacy of DoD
employees and contractors, and promote Government efficiency.




                                           19
Recommendations, Client Comments, and Audit
Response
Recommendations B.1. and B.2.a. have been revised in response to management
comments and to clarify the intent of the recommendations.

B.1. We recommend that the Under Secretary of Defense for Personnel and
Readiness develop and issue within 3 months a Deputy Secretary of Defense
Directive to achieve full Department of Defense compliance with the requirements
of Homeland Security Presidential Directive-12. The Directive should assign clear
responsibility for compliance with each aspect of HSPD-12 and specify milestones
for achieving compliance.

Client Comments. “OUSD (P&R) concurs with this recommendation. DoD is working
from the January 2008 DoD HSPD-12 Implementation Plan which outlines the
Department’s milestones for meeting those Federal conformance and interoperability
capabilities we have agreed to support. However, OUSD (P&R) recognizes the need to
coordinate additional milestones for areas that fall under the purview of other OSD PSAs
(i.e., personnel security / background vetting). OUSD P&R will work with these
organizations within the next three months to identify milestones that can be incorporated
into the DoD HSPD-12 Implementation Plan.”

Audit Response. Client comments are not responsive. The intent of the original
recommendation, as recognized by the client response, was that comprehensive DoD
guidance be issued establishing clear areas of responsibility and milestones for
implementation of HSPD-12. We request that the OUSD (P&R) respond to the revised
recommendation, providing an anticipated completion date for corrective action.

B.2. We recommend that, within 3 months, the Under Secretary of Defense for
Personnel and Readiness and the Under Secretary of Defense for Intelligence:

       a. Revise DoD Directive 1000.25, “DoD Personnel Identity Protection (PIP)
Program,” DoD Instruction 5200.08, “Security of DoD Installations and Resources,”
DoD Regulation 5200.08-R, “Physical Security Program,” and other DoD issuances
as necessary to appropriately reflect responsibility for incorporating FIPS 201-1
minimum requirements in all DoD electronic access control systems.

Client Comments (OUSD [P&R]). “OUSD (P&R) defers on a response to this
recommendation; the responsibility for incorporating the minimum requirements for
electronic access control systems does not fall under the purview of OUSD (P&R).
OUSD (I) is the DoD lead for Physical Security to include the standards for access
control. OUSD (P&R) will cooperate fully to support OUSD (I) with the development of
these requirements and recommends that any subsequent guidance be incorporated within
force protection or physical security publications or issuances such as the DoD
Regulation 5200.8R issued by OUSD (I).”


                                           20
Audit Response. The intent of the original recommendation was that DoD electronic
access control systems used to identify personnel requiring routine access to DoD
installations be compliant with FIPS 201-1 minimum requirements. USD(P&R) is the
staff proponent for DoD Directive 1000.25, and USD(I) is the staff proponent for DoD
Instruction 5200.08 and DoD Regulation 5200.08-R. We request that the OUSD(P&R)
respond to the revised recommendation, providing an anticipated completion date for
corrective action.

Client Comments (OUSD [I]). “OUSD (I) nonconcurs. P&R is not the Principal Staff
Assistant for Security, Access Control or Physical Security Equipment, which includes
electronic access control systems. DoDD 1000.25 must be revised to delete all references
to same. DoDI 5200.8 and DoDD 5200.8R will be revised to require all electronic access
control systems to meet HSPD 12 and OMB guidance. OUSD(I) will coordinate with
OSD (AT&L) to exercise RDT&E of all procurements for electronic access control
systems in coordination with the Components physical security representatives and
electronic systems engineers. OUSD(I) will maintain oversight in accordance with DoD
Instruction 5143.01.”

Audit Response. Client comments are not responsive. The intent of the original
recommendation was that DoD electronic access control systems used to identify
personnel requiring routine access to DoD installations be compliant with FIPS 201-1
minimum requirements. USD(P&R) is the staff proponent for DoD Directive 1000.25,
and USD(I) is the staff proponent for DoD Instruction 5200.08 and DoD
Regulation 5200.08-R. We request that the USD(I) respond to the revised
recommendation, providing an anticipated completion date for corrective action.

       b. Develop minimum background check requirements for vetting foreign
nationals in countries where no international security agreement exists, such as Iraq
and Afghanistan.

Client Comments (OUSD [P&R]). “OUSD (P&R) defers on a response to this
recommendation; the responsibility for personnel security standards does not fall under
the purview of OUSD (P&R). OUSD (I) is the DoD lead for Personnel Security to
include the standards for equivalent HSPD-12 vetting for Foreign Nationals. OUSD
(P&R) will fully cooperate with OUSD (I) on incorporating identified requirements into
the card issuance process and associated guidance.”

Audit Response. The client deferred to the OUSD (I) for comments on this
recommendation.

Client Comments (OUSD [I]). “OUSD (I) concurs. The Department (CI&S), in
conjunction with the Federal Interagency Working Group and with USD (Policy), ASD
(International Security Affairs) is working to define an acceptable vetting process for
foreign nationals requiring a CAC or physical access only badge in countries where no
international security agreement has been established.”




                                           21
Audit Response. Client comments are responsive.

B.3. We recommend that the Under Secretary of Defense for Intelligence:

       a. Revise DoD Regulation 5200.08-R, “Physical Security Program,” April 9,
2007, within 3 months to:

              (1) Require all contractors and Federal employees requiring routine
physical access to a DoD installation to undergo a NACI background investigation
and receive a DoD PIV credential.

Client Comments. “OUSD(I) concurs.”

Audit Response. Client comments are partially responsive. The Director did not
indicate what actions he has taken or will take to accomplish the recommendation or
include the anticipated completion date for corrective action. We request that the USD(I)
provide additional comments on actions taken.

              (2) Expressly prohibit the issuance of photoless identification
credentials used to gain access to DoD installations and facilities, or establish a
formal process to waive requirements for a photo on the credential.

Client Comments. “OUSD (I) concurs in part. OSD (P&R) is the proponent for CAC
and Identification Card issuance. OUSD (I) is the proponent for physical access only
credentials and will issue guidance to incorporate requirements mandated by Section
1069 of the 2008 National Defense Authorization Act. OUSD (I) will incorporate in
policy procedures that “unescorted” access will not be granted for persons who do not
present a photo identification credential. The federally compliant PIV credential and any
physical access only credential will be required to be displayed as a visual access badge.
Reasonable accommodation may be made for persons without photo identification, which
will include “escorted” access, if an escort is available.”

Audit Response. Client comments are partially responsive. USD(I) did not specify the
formal process to be established to waive requirements for a photo on the credential. We
request that the USD(I) provide additional comments, including an anticipated
completion date for corrective action.

              (3) Delete paragraph C3.3.2 in its entirety and delete the reference to
the Defense Biometric Identification System credential in paragraph C3.3.3 of the
Installation Access section.




                                           22
Client Comments. “OUSD (I) concurs. OUSD (I) has incorporated this stipulation in
formally staffed draft policy, Directive Type Memorandum 08-004, Policy Guidance for
DoD Access Control, which is pending USD (I) signature as of this submission and has
added language that all upgrades or procurement of access control systems be FIPS 201
compliant.”

Audit Response. Client comments are responsive.

Client Comments (ASD[NII]/CIO). Although not required to comment, the Deputy
Assistant Secretary of Defense for Information and Identity Assurance replied for the
ASD(NII)/CIO. He stated: “It is documented that the Defense Biometric Identification
System (DBIDS) was originally developed to meet a specific physical access credential
requirement in EUCOM and PACOM prior to the issuance of HSPD-12. The vetting
requirements included in the original DBIDS credential issuance process were
specifically suited for populations of people that were not going to be eligible for a PIV-
compliant credential. The DBIDS credential provided overseas commanders with a
physical access only credential that raised the level of protection afforded to physical
facilities while complying with best practices for electronically authenticated credential
use. No where in the text of this report is it acknowledged that the HSPD-12 mandate
and FIPS 201 identity credential standard does not apply to populations of personnel,
other than employees or contractors, that have a legitimate requirement to access Federal
installations or facilities on a routine or intermittent basis. DBIDS can meet the security,
vetting, revocation and tracking requirements for populations such as volunteers,
maintenance and supply vendors, unpaid interns, employees of non-military consessions
and businesses operating within installations or facilities. Recommend removing
Recommendation B.3.a.(3) from the report.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. USD(I) has responsibility for DoD physical access control policy and
has stated that DoD Regulation 5200.08-R will be revised to remove paragraph C3.3.2 in
its entirety.

       b. Suspend use of the Defense Biometric Identification System and any other
alternative credentials not explicitly approved by the Under Secretary of Defense
for Intelligence for physical access to DoD installations and facilities.

Client Comments (OUSD [I]). “OUSD (I) concurs in part. OUSD (I) will not suspend
use of existing legacy access control systems, which includes DBIDS until such time as
we have identified, tested and certified a replacement or upgrade that meets FIPS 201,
Security Equipment Integration and network security requirements. Suspending use of
existing legacy access control systems, whether FIPS compliant or not, would degrade
the only security mitigators we have in place at the present time. The Directive Type
Memorandum 08-004, Policy Guidance for DoD Access Control will require Heads of
DoD components when purchasing upgrades to existing access control systems or when
replacing current systems, the upgraded system must meet FIPS 201 (including ISO
[International Organization of Standardization] 14443 contactless technology and ability



                                             23
to perform automated personal identity verification); include an emergency power source;
and have the ability to provide rapid electronic authentication to Federal and DoD
authoritative databases, including DoD personnel registered in the Defense Enrollment
and Eligibility Reporting System. This change in policy will prohibit the procurement of
non FIPS 201 compliant systems.”

Audit Response. Client comments are responsive.

Client Comments (OUSD [P&R]). Although not required to comment on this
recommendation, the USD(P&R) provided these comments. “OUSD (P&R) non-concurs
with the recommendation to suspend the use of the Defense Biometric Identification
System (DBIDS). This access control system is installed throughout Europe, Korea,
Japan, Guam, the AOR [area of responsibility] (except Iraq and Afghanistan) and some
locations in CONUS [the continental United States], for a total of 157 bases. The use of
this system has substantially increased security at each of the bases where it is used
compared to the historical use of “flash and pass” processes. To suspend usage of this
system would significantly degrade security at each of these bases where it is currently
operating or defer improvement in security at those bases where DBIDS implementations
are planned. OUSD (P&R) would concur with a recommendation that DBIDS migrate to
meet the policy published by OUSD (I).”

Audit Response. USD(I) has responsibility for DoD physical access control policy and
has stated that his office will not suspend use of legacy access control systems including
DBIDS. The USD(I) will require heads of DoD Components to meet FIPS 201-1
requirements when updating or replacing existing access control systems.




                                            24
Appendix A. Scope and Methodology
We performed this audit from March 2007 through February 2008 in accordance with
generally accepted government auditing standards. The standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. The evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We evaluated the implementation of HSPD-12; Federal Information Processing
Standards Publication 201-1; OMB Memorandums M-05-24 and M-07-06, National
Institute of Standards and Technology Special Publications 800-73-1, 800-85A and B,
and 800-79; and DoD Regulation 5200.08-R. We interviewed personnel and obtained
information from staff at DMDC, Defense Human Resources Activity, Pentagon Force
Protection Agency, Public Key Infrastructure Program Management Office, Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief Information
Officer; Under Secretary of Defense for Acquisition, Technology, and Logistics, Under
Secretary of Defense for Intelligence, General Services Administration, and RAPIDS
workstations site security managers, physical security officials, and human resources
personnel with the Departments of the Army, Navy, Air Force, Marine Corps, Coast
Guard, and the Defense Logistics Agency.

We visited the DMDC West facility to determine the stage of HSPD-12 compliance and
to review CAC testing, issuance, and infrastructure. We judgmentally selected several
military and Coast Guard installations with CAC issuance facilities to determine
HSPD-12 compliance at the installation level.

   •   Camp Parks, San Francisco, California
   •   Fort Hunter Liggett, Monterey, California
   •   Moffett Field, Mountain View, California
   •   Presidio of Monterey, Monterey, California
   •   Naval Postgraduate School, Monterey, California
   •   Navy Yard, Washington Navy Yard, Washington, D.C.
   •   Customer Service Desk, Monterey, California
   •   Travis Air Force Base, San Francisco, California
   •   Andrews Air Force Base, Maryland
   •   Onizuka Air Force Base, Sunnyvale, California
   •   Marine Corps Base Quantico, Quantico, Virginia
   •   Alameda Coast Guard Support Center, Alameda, California
   •   Petaluma Coast Guard Training Center, Petaluma, California
   •   Defense Logistics Agency, Fort Belvoir Army Base, Fort Belvoir, Virginia
   •   Defense Logistics Agency, Defense Supply Center, Naval Support Activity,
       Philadelphia, Pennsylvania


                                           25
These installations were selected because of their close proximity to DMDC West or the
National Capital Region, their participation in beta testing the RAPIDS 7.2 software, and
the variety of services they provide. We visited the Defense Supply Center-Philadelphia
and Defense Logistics Agency because we received a referral from the Defense Criminal
Investigative Service, Philadelphia regarding a photoless identification cardholder at the
Defense Supply Center-Philadelphia. At all locations, we observed the CAC issuance
process, inquired about physical security measures for the base as well as securing the
inventory of CAC card stock, asked about training requirements for staff involved in
CAC card issuance and inquired about the human resources process pertaining to
background checks.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
Members of the Technical Assessment Directorate assisted the auditors in understanding
technical aspects of the audit. Mr. Jaime Bobbio, electronics engineer, and Mr. Minh
Tran, computer engineer, helped in the review of technical guidance, tests of technology
on cards, and the understanding of how the next-generation CAC will work.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) has issued two
reports discussing Federal Employee Identification Standards. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. 08-120SU, “Military Bases, High-level Access Control Guidance Is
Consistent, but Flexible For Local Circumstances and Evolving to Standardize Access
Control,” October 2007.

GAO Report No. 06-178, “Electronic Government: Agencies Face Challenges in
Implementing New Federal Employee Identification Standard,” February 2006.




                                            26
Appendix B. Guidance on Identification and
   Access Control
Public Law
Public Law 109-364, “John Warner National Defense Authorization Act for Fiscal Year
2007, Section 585,” October 17, 2006, requires that no later than 180 days after the
enactment of this Act, the Secretary of Defense shall submit to Congress an assessment
of the feasibility of utilizing military identification cards that do not contain, display, or
exhibit the Social Security number of the individual identified by a military identification
card.

The Privacy Act of 1974 was created in response to concerns about how the creation and
use of computerized databases might affect individuals’ privacy rights. It safeguards
privacy by creating four procedural and substantive rights regarding personal data. First,
it requires government agencies to show an individual any records kept on him or her.
Second, it requires agencies to follow certain principles, called “fair information
practices,” when gathering and handling personal data. Third, it restricts how agencies
can share an individual’s data with other people and agencies. Fourth and finally, it
permits individuals to sue the Government for violating Privacy Act provisions.

Congressional Language
H.R. REP. NO. 109-452, 109th Cong., 2nd Sess. (May 5, 2006), “National Defense
Authorization Act for Fiscal Year 2007 Report of the Committee on Armed Services
House of Representative on H.R. 5122 together with Additional and Dissenting Views,”
directed the Secretary of Defense to study the feasibility of developing an alternative
process that would allow service members to immediately request that their military
identification cards not include their Social Security number.

Presidential Directive
Homeland Security Presidential Directive-12, “Policy for a Common Identification
Standard for Federal Employees and Contractors,” August 27, 2004, states that wide
variations in the quality and security of forms of identification used to gain access to
secure Federal and other facilities where there is potential for terrorist attacks need to be
eliminated. Therefore, the President stated that it is the policy of the United States to
enhance security, increase Government efficiency, reduce identity fraud, and protect
personal privacy by establishing a mandatory, Government wide standard for secure and
reliable forms of identification issued by the Federal Government to its employees and
contractors. To implement the policy, the Secretary of Commerce shall promulgate a
Federal standard for secure and reliable forms of identification no later than 6 months
after the date of HSPD-12 in consultation with the Secretaries of State, Defense and
Homeland Security; the Attorney General; the Director of the Office of Management and
Budget, and the Director of the Office of Science and Technology Policy. For purposes
of this directive, secure and reliable forms of identification are issued based on sound


                                             27
criteria for verifying an individual employee’s identity; strongly resistant to identity
fraud, tampering, counterfeiting, and terrorist exploitation, can be rapidly authenticated
electronically, and is issued only by providers whose reliability has been established. In
addition, no later than 4 months following promulgation of the standard, the heads of
executive departments and agencies shall have a program in place to ensure the
identification issued by their departments and agencies to Federal employees and
contractors meets the standard. Additionally, the heads of executive departments and
agencies shall require the use of identification by Federal employees and contractors that
meets the standard in gaining physical access to Federally-controlled facilities and logical
access to Federally-controlled information systems.

OMB Memoranda
OMB M-07-16, “Safeguarding Against and Responding to the Breach of Personally
Identifiable Information,” May 22, 2007, requires agencies to eliminate the unnecessary
use of the Social Security number. Agencies must now also review their use of the Social
Security number in agency systems and programs to identify instances in which
collection or use of the Social Security number is superfluous. The memo indicates that,
within 120 days of the date of the memo, agencies must establish a plan to eliminate the
unnecessary collection and use of the Social Security number within 18 months.

OMB M-07-06, “Validating and Monitoring Agency Issuance of Personal Verification
Credentials,” January 11, 2007, discusses validating and monitoring agency issuance of
PIV-compliant identity credentials in support of HSPD-12. Additionally, OMB M-07-06
directed all agencies to provide GSA a credential with their agency’s standard
configuration by January 19, 2007.

OMB M-06-18, “Acquisition of Products and Services for Implementation of HSPD-12,”
June 30, 2006, provides updated direction for the acquisition of products and services for
the implementation of HSPD-12 and the status of implementation efforts.

OMB M-05-24, “Implementation of Homeland Security Presidential Directive-12 Policy
for a Common Identification Standard for Federal Employees and Contractors,”
August 5, 2005, requires development and agency implementation of a mandatory,
Government-wide standard for secure and reliable forms of identification for Federal
employees and contractors. It also establishes timelines and milestones for FIPS 201-1
compliance.

NIST Directives and Special Publications
Federal Information Processing Standards Publication 201 (FIPS 201), “Personal Identity
Verification (PIV) of Federal Employees and Contractors,” February 25, 2005, provides
standards for the identity verification, issuance, and use of the common identity standard.
It contains two major sections. Part One describes the minimum requirements for a
Federal personal identity verification system that meets the control and security
objectives of HSPD-12, including personal identity proofing, registration, and issuance.
Part Two provides detailed specifications that will support technical interoperability of
PIV systems of Federal departments and agencies. It describes the card elements, system


                                            28
interfaces, and security controls required to securely store, process, and retrieve personal
identity information from the card. The physical card characteristics, storage media, and
data elements that make up identity credentials are specified in this standard.

FIPS PUB 201-1, Change Notice-1 (FIPS 201-1) “Personal Identity Verification of
Federal Employees and Contractors,” March 2006, updates the requirements established
by FIPS 201. Specifically, it makes changes to the graphics on the back of the PIV card
and the Abstract Syntax Notation One encoding of the NACI indicator.

National Institute of Standards and Technology (NIST) Special Publication (SP)
800-85B, “PIV Data Model Test Guidelines,” July 2006, provides technical guidance on
the methodology to be used during testing applicable components and specifies the
derived test requirements, detailed test assertions, and conformance tests for testing the
data elements of the PIV system.

NIST SP 800-85A, “PIV Card Application and Middleware Interface Test Guidelines,”
April 2006, provides test requirements and test assertions that could be used to validate
the compliance/conformance of two PIV components—PIV middleware and PIV card
application to specifications in NIST SP 800-73.

NIST SP 800-73-1, “Interfaces for Personal Identity Verification,” March 2006, contains
technical specifications for the smart card, the interface, the manner in which data on the
credential are protected, and the format in which the data are to be retrieved. These
specifications reflect the design goals of interoperability and PIV card functions.

DoD Regulation
DoD Regulation 5200.08-R, “Physical Security Program,” April 9, 2007, issued under the
authority of DoD Instruction 5200.08, implements the policies and minimum standards
for the physical security of DoD installations and resources. This regulation applies to all
organizational entities in the Department of Defense, referred to collectively as “DoD
Components,” and is mandatory. This regulation addresses the physical security of
personnel, installations, facilities, operations, and related resources of DoD Components,
and provides minimum standards for the protection of resources normally found on
installations. Regulation objectives include standardizing personal identification
authentication for DoD installations and facilities, promoting interoperability with other
Federal entities, and utilizing the DoD PIV credential as the universal authority of
individual authenticity. The DoD PIV credential will provide the level of identity
assurance and Government-wide recognition mandated by HSPD-12. The regulation also
establishes DBIDS as an alternative to the CAC.

DoD Directives
DoD Directive 1000.25, “DoD Personnel Identity Protection (PIP) Program,” July 19,
2004, establishes policy for the implementation and operation of the PIP program
including use of identity information, issuance and use of DoD identity credentials, and
operation of the Defense Enrollment and Eligibility Reporting System, Real-time
Automated Personnel Identification System (RAPIDS) and associated systems, DBIDS,


                                             29
Defense Cross-Credentialing Identification System, Defense National Visitors Center,
and the Defense Noncombatant Evacuation Operations Tracking System.

DoD Directive 8190.3, “Smart Card Technology,” August 31, 2002, requires that smart
card technology applied in the form of a CAC shall be the standard identification card
and the Department’s primary platform for the Public Key Infrastructure (PKI)
authentication token used to access DoD computer networks and systems.

DoD Instructions
DoD Instruction 8520.2, “Public Key Infrastructure and Public Key Enabling,” April 1,
2004, assigns responsibility to the ASD(NII/CIO) to serve as the Designated Approving
Authority for the DoD PKI; approve or disapprove Department-wide waivers submitted
by the DoD PKI Program Management Office; and approve DoD use of hardware tokens
other than the CAC for identity, signature, and encryption certificates. The DoD
Component CIOs shall have responsibility to approve or disapprove waiver requests in
accordance with waiver process guidance and to submit approved waivers to the
ASD(NII/CIO). The Director, DoD PKI Program Management Office, is to review
justification of requests for hardware tokens other than the CAC for identity, signature,
and encryption certificates and provide a recommendation for action to the
ASD(NII/CIO). The instruction also requires authentication with certificates issued by
the DoD PKI on hardware tokens. A hardware token is defined as a portable, user-
controlled, physical device used to generate, store, and protect cryptographic information
and to perform cryptographic functions.

DoD Instruction 1000.1, “Identity Cards Required by the Geneva Conventions,”
January 30, 1974, provides requirements for the form, issuance, and use of identity cards
required by the Geneva Conventions of August 12, 1949, for the protection of war
victims.

DoD Memoranda and Task Orders
DoD Memorandum, “Discontinuance of Military Service Number as Personnel
Identification,” January 1967, authorizes the substitution of the Social Security number
for the military service number on ID badges and tags throughout DoD when a unique
identification of individuals is required.

USD(P&R) Memorandum, “Common Access Card (CAC) Eligibility for Foreign
National Personnel,” March 9, 2007, applies to DoD-sponsored foreign national military,
government and contractor personnel who are sponsored by their government as part of
an official visit or assignment to work on a DoD installation or controlled space or
requiring access to DoD networks both on site or remotely.

The Joint Task Force Global Network Operations (JTF-GNO) Communications Task
Order 06/02, “Tasks for Phase 1 of the Accelerated Public Key Infrastructure (PKI)
Implementation,” January 2006. The task order states that, upon receipt, all DoD
Components are directed to accelerate PKI implementation. It explains that ongoing
intrusion activity has focused on exfiltration of valid usernames and passwords for use in


                                            30
further exploitation and access, presenting a direct danger to the Global Information Grid.
Task three requires 100-percent compliance with smart card log-on to the NIPRNET
using DoD PKI for all Components no later than July 31, 2006. This task applies
specifically to the ability to log on to the network, and applies to all desktops, servers,
and laptops that connect to the NIPRNET.

JTF-GNO Communications Task Order 06/02 Update #3, “Focused Effort to Secure
NIPRNet Web Servers,” September 21, 2006, provides notice to DoD Components of
enforcement measures to ensure proper configuration of private DoD Web servers and
eliminate all username/password and non-DoD PKI certificate authorities. Task two
requires that all Components allow only certificate-based client authentication to private
DoD Web servers using certificates issued by DoD PKI certificate authorities. These
actions will affect mission and mission-support systems that are not PKI compliant as
well as people who do not have CACs who may require access to PKI-authenticating
systems. Individuals without CACs must use either an alternate log-on token or another
approved method of two-factor authentication. Exceptions will be based on valid
operational needs, and approved exceptions must be submitted to the JTF-GNO and must
include a Plan of Action & Milestones for mitigation or completion, as well as a
statement of operational risk.

Military Department Directive
Department of the Navy, Naval Support Activity (NSA) Instruction 5530.1,
“Identification Badges and Passes for Entrance onto the NSA Philadelphia Compound,”
May 31, 1991, states that civilian employees are required to wear ID badges at all times
while on the compound. When entering the compound, pedestrian employees must
present their ID badge to the guard to verify the photo and expiration date.

DoD Component Instruction
Defense Logistics Agency Instruction (DLAI) 5710.1, “Physical Security Program,”
August 12, 1994, prescribes procedures and minimum standards for the physical
protection of DLA personnel, installations, operations, and assets. The instruction states
that all DLA activities will establish procedures for the identification and control of
personnel and visitors. The DLA ID card is issued to DLA employees and is not meant
to grant access to security areas; a separate key card or badge should be issued for this
purpose. The card configuration example indicates that a photo of the cardholder is to be
displayed in the lower left corner of the card. At a minimum, the front of the badge must
contain a color photograph; a serial number; issuing activity; the signature of the
authenticating official; the signature, name, organization, and height of the holder; and
the expiration date of the badge. ID badges for permanent DLA employees and tenant
activity personnel bear an expiration date that is no more than 5 years from date of issue.




                                            31
Appendix C. Client Comments on the
   Findings and Audit Response
USD(P&R) Comments on the Findings

The Deputy Under Secretary of Defense (Program Integration) responded for the
USD(P&R). Below are excerpts from the draft report, clarifications that the USD(P&R)
recommended, and audit responses.

Item 1 (page 2, “Background”)
Excerpt: “As of March, 2007, DoD has issued 56 such credentials.”

Client Comments. “As outlined in our March 2008 PIV issuance report to OMB, DoD
has issued 108,778 PIV transitional configured CACs.”

Audit Response. We reviewed client comments and determined the draft report was
accurate. According to the Department of Defense Status Report updated December 26,
2007 (downloaded from the Defense Manpower Data Center Web site as of March 2007),
DoD had issued 56 PIV cards to employees. The Department of Defense Status Report
updated April 1, 2008, cites 83,659 PIV cards issued for employees and 25,119 PIV cards
issued for contractors, totaling 108,778 PIV cards. We have updated the report to reflect
the transitional PIV cards issued after the draft report.

Item 2 (page 2, “Internal Controls”)
Excerpt: “Implementing the recommendations made in this report, together with those
developed for a related audit, Project No. D2007-D000LA-0199, ‘Controls Over the
Contractor Common Access Card Life Cycle,’ will assist in bringing the Department into
compliance. A copy of the final report will be provided to the senior official responsible
for internal controls in DoD.”

Client Comments. “It is inappropriate to reference an incomplete audit which draft
results have not been shared with organizations engaged with the audit. DoD IG
recommendations and findings related to Project No. D2007-D000LA-0199 should be
addressed by a separate audit through the formal audit review processes.”

Audit Response. Both reports pertain to transitional PIV cards, and common internal
control weaknesses should be addressed together. Results of Project D2007-D000LA-
0199 were shared with OUSD(P&R) on April 15, 2008, however, the results have not yet
been published and, therefore, the reference has been deleted.

Item 3 (page 3, “DoD Implementation of HSPD-12”)
Excerpt: “DoD failed to meet the milestones approved by the Office of Management and
Budget (OMB) in 2005 for compliance with HSPD-12 by 2010.”



                                            32
Client Comments. “DoD has updated its original HSPD-12 Implementation Plan to
OMB on two occasions (most recently 24 January 2008). OMB approved our initial
revision (September 2006) and is currently reviewing our January 2008 revision.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. Auditors requested supporting documentation for the OUSD(P&R)
assertion that OMB approved the DoD HSPD-12 Implementation Plan revision of
September 2006; the requested support was not provided. Further, the September 2006
revision projected PIV-II transitional initial operational capability would be attained by
October 27, 2006, and full HSPD-12 compliance 3.5 years later (2010). Neither
projection will be realized. The most recent DoD HSPD-12 Implementation Plan of
January 24, 2008, projects full compliance with HSPD-12 by the summer of 2012.

Item 4 (page 5, “Deadlines for Completion of Background Checks”)
Excerpt: “According to DoD’s January 2008 implementation plan, as of
December 26, 2007, the following numbers of DoD employees and contractors have not
completed the required background checks: Military/Civilian (1,240,214); contractors
(196,185); total (1,436,399).”

Client Comments. “The numbers provided within the DoD’s January 2008
Implementation Plan reflected efforts taken to reconcile CAC issuance records with
JPAS. The 1,436,399 number are records that showed as ‘unknown’ during this effort,
but does not mean that these individuals do not have background investigations. The use
of the term ‘have not completed’ is not accurate.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The numbers reported in the Implementation Plan were identified as
Federal civilian, military, and contract employees requiring NACI or equivalent
background checks that had not previously undergone a NACI. The report noted, as did
the January 24, 2008, DoD Implementation Plan, that the numbers might not be accurate
due to JPAS data quality.

Item 5 (page 5, “Privacy Requirements”)
Excerpt: “DoD Geneva Conventions credential for members of the uniformed service
does not comply with HSPD-12 or with Federal policies and requirements to reduce
identity fraud and protect personal privacy.”

Client Comments. “The DoD Geneva Conventions CAC does comply with standards
issued for HSPD-12 (see FIPS 201-1, Section 4.1.4.4, page 20).”

               For Zones 9 and 10, departments and agencies are encouraged to use
               this area prudently and minimize printed text to that which is absolutely
               necessary.

               In the case of the Department of Defense, the back of the card will have
               a distinct appearance. This is necessary to display information required
               by Geneva Accord and to facilitate medical entitlements that are
               legislatively mandated.


                                                 33
“The additional references in the ‘Privacy Requirements’ section regarding Social
Security Numbers (SSN) are not specifically related to HSPD-12, associated NIST
publications, and relevant OMB memoranda (M05-24) on HSPD-12. In fact, the
Administration’s initiative to reduce the use and exposure of SSN within the Federal
Government began in April 2007 with the release of the Presidential Task Force on
Identity Theft’s strategic plan (and subsequent OMB memo M07-16 22 May 2007).
Until FIPS 201-1 is updated to align with new Federal policies related to SSNs, this topic
is outside the scope of the audit announcement.

DoD has engaged in the effort to decrease the possibility of our Service members
exposure to identity fraud/theft through the Department’s use of SSN. USD (P&R)
provided a Report to Congress that outlines the Department’s plan. We have been
working to secure consensus with others within the Department and adjust the necessary
paperwork to make sure our proposal satisfies the Geneva Conventions requirements. A
directive-type memorandum, ‘DoD Social Security Number Reduction Plan,’ was signed
by USD (P&R) 29 March 2008.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. HSPD-12 policy specifically mandates the protection of personal
privacy and the reduction of identity fraud by establishing a standard for secure and
reliable forms of identification. Secure and reliable forms of identification are defined in
part as being strongly resistant to identity fraud. The printing of the entire Social
Security number on PIV credentials does not comply with the objective of HSPD-12 to
reduce the potential for identity theft. To suggest otherwise is inconsistent with
presidential and congressional direction to protect personal privacy.

FIPS 201-1 contains Geneva Conventions card requirements for zones 9 and 10.
FIPS 201-1 encourages that agency-specific text in zones 9 and 10 of PIV cards be
limited to text that is absolutely necessary. The printing of the entire Social Security
number on Geneva Conventions cards should be discontinued. The Department’s plan to
truncate the visible Social Security number on Geneva Conventions credentials to four
digits will reduce the potential for identity theft. The directive-type memorandum signed
by the USD(P&R) was issued after publication of this draft report. During the formal
comment period, the DoD Inspector General did not concur.

Item 6 (page 5, “Privacy Requirements”)
Excerpt: “No time table was provided to implement the recommendation, however, nor
did the report specify who was responsible for implementation.”

Client Comments. “Identification cards to support Geneva Conventions and
benefits/eligibility are clearly the responsibilities of the USD (P&R). Authorship of the
report to Congress, ‘Omission of the SSN from the Department of Defense Military
Identification Cards,’ May 23, 2007, was led by the OUSD (P&R) and signed by
USD (P&R).”




                                             34
Audit Response. We reviewed client comments and determined that report revisions
were not required. We agree identification cards to support Geneva Conventions and
benefits and eligibility are clearly the responsibilities of USD(P&R); however, the report
to Congress does not explicitly state which DoD Component is responsible for
implementing the recommendations.

Item 7 (page 6, “Personal Identity Verification-II Requirements”)
Excerpt: “DoD did not meet the March 2006 PIV-II initial operating capability
implementation milestone approved by OMB in the DoD implementation plan, nor did
DoD meet the October 2006 OMB milestone for final PIV-II implementation.”

Client Comments. “The reference for the March 2006 PIV-II IOC [initial operational
capability] date is unclear. The approved DoD HSPD-12 Implementation Plan states the
following:
       • DoD achieved “initial operational capability (IOC) for PIV I” by
          October 27, 2005.
       • DoD achieved “IOC for PIV II” with issuance of DoD PIV transitional cards by
          October 27, 2006.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The DoD HSPD-12 Implementation Plan of June 27, 2007, projected
PIV-II initial operational capability would be achieved within 9 to 12 months of
promulgation by the National Institute of Standards and Technology (NIST) of the
required information and the availability of production-quality products that support
PIV-II. NIST Special Publication 800-73, “Interfaces for Personal Identity Verification,”
was promulgated in April 2005. March 2006 was the 12-month point for the DoD
projected PIV-II initial operational capability. In addition, OMB Memorandum M-05-24,
“Implementation of Homeland Security Presidential Directive (HSPD)-12, “Policy for a
Common Identification Standard for Federal Employees and Contractors,”
August 5, 2005, required all agencies to begin compliance with PIV-II by
October 27, 2006. DoD was not and is not compliant with PIV-II because DoD’s PIV
credential is missing at least two key elements of PIV-II: (1) the mandatory PIV PKI
authentication certificate and (2) the DoD PIV applet.

Item 8 (page 8, “DoD Transitional Credential”)
Excerpt: “. . .workstations to RAPIDS version 7.2 to produce DoD PIV credentials for
DoD installations in the continental United States by December 12, 2008. No schedule
for deployment of updated RAPIDS workstations has been announced for four
installations outside the continental United States, including two in Germany and one
each in Djibouti and Greenland.”

Client Comments. “The RAPIDS upgrade schedule to produce DoD PIV credentials for
calendar year 2008 includes all OCONUS installations in Europe, Africa, and Asia,
including those referenced in the excerpt. The only workstations that it does not include
are those portable deployable shipboard and forward deployed units. OUSD (P&R) is




                                            35
working directly with the Services to upgrade these workstations as they return from
theater or deployment or have a period of availability.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The installation schedule does include these four locations. However,
the notation in the columns “install begin” and “install end” for the two Germany
locations is “TBD [to be determined].” Therefore, they are not considered scheduled.
The “install begin” column contains dates for Djibouti and Greenland. However, the
“install end” column indicates “TBD.”

Item 9 (page 11, “DoD Component Implementation Efforts”)
Excerpt: “Components have been authorized to issue Defense Biometric Identification
System (DBIDS) credentials instead of PIV credentials.”

Client Comments. “DBIDS is a local or regional perimeter access control system that
uses the CAC (for those individuals who qualify) and contains local physical access only
badging capabilities (for those who do not qualify for a CAC). DBIDS credentials are
not issued to those who possess CACs. As such, HSPD-12, associated NIST
publications, and relevant OMB memoranda (especially M05-24) on HSPD-12 have
nothing to do with DBIDS. This topic is outside the scope of the audit announcement,
‘DoD Implementation of Homeland Security Presidential Directive-12.’”

Audit Response. We reviewed client comments and determined that report revisions
were not required. As stated in the draft report, contractors requiring access to DoD
facilities and installations for more than 6 months receive DBIDS cards. As stated in
OMB Memorandum M-05-24, these contractors must receive a PIV credential and are
subject to the HSPD-12 required vetting process. In addition, OMB Memorandum M-05-
24 does not differentiate between physical access to a single facility and physical access
to multiple facilities.

Item 10 (page 12, “Photoless Identification”)
Excerpt: “The Commanding Officer at the Naval Support Station (now Naval Support
Activity) in Philadelphia, Pennsylvania, issued a waiver for a photo identification badge
to a Defense Logistics Agency (DLA) employee working at Defense Supply Center-
Philadelphia (DSCP) who objected for religious reasons to having his photograph taken
and displayed on the identification badge.”

Client Comments. “The badge in questions is not a CAC. It was a locally issued badge
to facilitate access to the installation. A congressional response dated October 16, 2006
stated that a special exemption to policy could not be approved through OUSD (P&R), to
receive a CAC without a picture, but if the religion could be accommodated in another
way, then OUSD (P&R) could waive the requirement to receive a CAC. This is the only
documented request across 3.5 million active CACs.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The audit report clearly states that the credential is a Navy



                                            36
identification badge, and does not imply that it is a CAC. The congressional response
dated October 16, 2006, does clearly state that a CAC cannot be issued without a photo,
but it makes no mention of alternative religious accommodation or of waiving the
requirement to receive a CAC.

Item 11 (page 12, “DBIDS Credentials”)
Excerpt: “DoD has authorized Components to issue a DBIDS card to employees and
contractors who require only routine physical access. This practice deviates from
HSPD-12.”

Client Comments. “DBIDS cards are not issued to DoD civilian or military personnel–
those individuals receive CACs. Identification of those contractors who are to receive a
PIV card is based on the Department’s determination of the access requirement. DoD has
defined eligible CAC contractors in the following manner in the draft ‘Next Generation
CAC Implementation Guidance’ directive-type memorandum (DTM), signed into the
SD 106 staffing process on 6 March 2008”:

              CAC eligibility for other populations, including DoD contractors, non-
              DoD Federal civilians, state employees, and other non-DoD affiliates,
              is based on the government sponsor’s determination of the type and
              frequency of access required to DoD facilities or networks that will
              effectively support the mission. To be eligible for a CAC, the access
              requirement must meet one of the following criteria:

                  •   The individual requires access to multiple DoD facilities or
                      access to multiple non DoD Federal facilities on behalf of
                      DoD (this requirement is applicable to DoD contractors only).
                  •   The individual requires both access to a DoD facility and
                      access to DoD networks on site or remotely.
                  •   The individual requires remote access to DoD networks that
                      use only the CAC logon for user authentication.

Audit Response. We reviewed client comments and determined that report revisions
were not required. DoD Regulation 5200.08-R, “Physical Security Program,”
April 9, 2007, does not specify the type of individuals who will receive a DBIDS card.
Instead, the Regulation states that the “DBIDS card shall be issued and authorized for
routine, physical access, to a single DoD installation or facility.” In addition, as the
client’s comments state, the “Next Generation CAC Implementation Guidance” is a draft
document.

Item 12 (page 12, “DoD HSPD-12 Policy and Guidance”)
Excerpt: “DoD established a working group to develop comprehensive guidance for
implementation of HSPD-12, but the group has made only limited progress.”

Client Comments. “The HSPD-12 workgroup has made significant progress since its
inception. A Deputy Secretary of Defense level Directive Type Memorandum (DTM) on
HSPD-12 policy is in formal SD106 coordination. In addition, an SD 106 coordination
request was signed by Dr. Chu for a DTM on the ‘Next Generation CAC Implementation
Guidance’ on 5 March 2008. Additionally, several sub-working groups have been


                                               37
established and are meeting to directly address issues regarding personnel security and
vetting criteria in compliance with HSPD-12, and to set standards for access control to
DoD installations and facilities.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. Members of the HSPD-12 working group expressed frustration with
delays in formulating the implementation guidance because of Component disagreements
and nonconcurrence regarding responsibility for implementation elements. On April 10,
2008, after issuing the draft report on March 21, 2008, the DoD Office of Inspector
General received the Draft USD(P&R) Guidance, “Next Generation Common Access
Card (CAC) Implementation Guidance in Support of Homeland Security Presidential
Directive-12 (HSPD-12),” for coordination. On April 11, 2008, the DoD Office of
Inspector General received for coordination the Draft Deputy Secretary of Defense
Directive-Type Memorandum (DTM) #2008-006, “DoD Implementation of Homeland
Security Presidential Directive-12 (HSPD-12).” Both documents remain in draft and
under revision to address concerns of DoD Components other than USD(P&R).

Item 13 (page 12, “DoD HSPD-12 Policy and Guidance”)
Excerpt: “Meanwhile, DoD senior management chose to establish and implement less
stringent access control requirements than those established by HSPD-12.”

Client Comments. “HSPD-12 associated NIST publications, and relevant OMB
guidance do not provide specific mandates or timetable for the use of HSPD-12
credentials to control access to Federal network assets or installations. In fact, the CAC
was implemented in 2000 and has provided a secure and reliable identification card prior
to the release of HSPD-12 so that it is used daily to:

   •   Facilitate access to DoD facilities and installations around the world.

   •   Authenticate to 98% of the Department’s unclassified network accounts and
       100% of the Departments private web servers, web sites, and portals. This has
       resulted in:

           o Successful intrusions declining 46 percent in the past year because of a
             requirement that all DOD personnel log on to unclassified networks using
             CACs, although there are 6 million probes of Defense Department
             networks a day. (JTF GNO, Lt. Gen. Charles Croom, Federal Computer
             Weekly article on 25 January 2007)

           o The Number of successful socially engineered e-mail attacks (definition:
             A socially engineered attack is one in which the user is somehow tricked
             into doing the attacker’s bidding) against DoD users—a practice known as
             spear phishing—declining 30 percent in the past year (JTF GNO, Lt. Gen,
             Charles Croom, Federal Computer Weekly article on 25 January 2007).”




                                            38
Audit Response. We reviewed client comments and determined that report revisions
were not required. DoD Regulation 5200.08-R, “Physical Security Program,” April 9,
2007, paragraph C3.3.2. and paragraph C3.3.3., establishes a less stringent access control
requirement. DoD Regulation 5200.08-R requires the implementation of DBIDS
throughout DoD installations and facilities. As stated in the draft report, DBIDS does not
meet the HSPD-12 security and access control requirements. The Director of Security in
the Office of the Under Secretary of Defense for Intelligence has agreed to revise and
remove references to DBIDS from DoD Regulation 5200.08-R.

Item 14 (page 13, “Issuance of Guidance”)
Excerpt: “DoD Regulation 5200.08-R . . . . is inconsistent with HSPD-12 because it
allows DBIDS and other forms of identification that are not compliant with FIPS 201-1.”

Client Comments. “See remarks in item 16.”

Audit Response. See audit response for item 16.

Item 15 (page 13, “DBIDS Credential and Physical Access Control System”)
Excerpt: “OMB instructed agencies to be careful not to develop policies that contradict
HSPD-12 standards for identity proofing and issuance of credentials. HSPD-12 standards
mandate that all Federal employees and contractors requiring routine access for 180 days
or greater receive a PIV-compliant credential and undergo a NACI or equivalent
background check. DoD Regulation 5200.08-R authorizes personnel requiring only
routine physical access to receive a DBIDS credential and undergo the less rigorous
NAC. Granting routine access to DoD installations to personnel who have only a NAC
background check does not fully comply with the HSPD-12 policy objective to enhance
security and protect physical and human capital assets all DoD installations.”

Client Comments. “See remarks in item 16.”

Audit Response. See audit response for item 16.

Item 16 (page 13, “DBIDS Credential and Physical Access Control System”)
Excerpt: “Yet the system does not meet the minimum standards of FIPS 201-1 to verify
the claimed identity of individuals seeking physical access to Federal Government
facilities . . . . DBIDS uses card readers and scanners that are not on the Approved
Products List as required by OMB.”

Client Comments. “DBIDS is a local or regional perimeter access control system that
uses the CAC (for those individuals who qualify) and contains local physical access only
badging capabilities (for those who do not qualify for a CAC). DBIDS credentials are
not issued to those who possess CACs. As such, HSPD-12, associated NIST publications,
and relevant OMB memo on HSPD-12 have nothing to do with DBIDS. This topic is
outside the scope of the audit announcement, ‘DoD Implementation of Homeland
Security Presidential Directive-12.’”




                                           39
Audit Response. We reviewed client comments and determined that report revisions
were not required. According to DoD Regulation 5200.08-R, paragraph C3.3.2., “the
DBIDS card renders a source of identity and verification of affiliation with the
Department of Defense, and is a proven physical access system in accordance with
Reference (r) [FIPS 201-1].” However, the DBIDS system does not meet the minimum
standards of FIPS 201-1, as stated in the draft report. The policy of the Director of
Security in the Office of the Under Secretary of Defense for Intelligence is that all
upgrades and procurements of access control systems be FIPS 201-1-compliant.

Item 17 (page 13, “DBIDS Credential and Physical Access Control System”)
Excerpt: “Neither the DBIDS system nor the card is configured to operate with HSPD-12
security features such as PKI certificates, the Card Holder Unique Identifier, and
biometrics embedded in the integrated circuit chip of the credential.”

Client Comments. “See remarks in item #18.”

Audit Response. See audit response for item #18.

Item 18 (page 13, “DBIDS Credential and Physical Access Control Systems”)
Excerpt: “Further, the use of barcode technology on the DBIDS credential does not
enhance security because the barcode, a static physical card feature, cannot deter fraud,
prevent counterfeiting, or protect privacy. . . . DBIDS does not meet the FIPS 201-1
minimum standards to enhance security, increase Government efficiency, and protect
personal privacy.”

Client Comments. “See remarks in item #13. Additionally, individuals who receive
local access badges or DBIDS credentials typically do not receive CACs (e.g., DoD PIV
credential). There is no place within HSPD-12, FIPS 201 or OMB M05-24 that specifies
access control rules/criteria for physical installations and/or IT assets covering personnel
who do not qualify for CACs or Federal PIVs. The type of background investigations
conducted on these individuals is outside the scope of HSPD-12.

Moreover, PKI is not intended to be used in the physical access control environment.
DBIDS, which predates HSPD-12, is a complementary not competing system. DBIDS:
  • Went operational on 9/11/2001 in Korea
  • Was built to optimize interoperability through use of bar code technologies
  • Managed risk by using local or regionally stored biometrics for authentication
      which minimizes risk of fake/fraudulent cards
  • Is scalable to FPCON levels
  • Is able to provide information sharing across a region.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. DoD Regulation 5200.08-R, “Physical Security Program,” April 9,
2007, paragraph C3.3.2. and paragraph C3.3.3., establishes a less stringent access control
requirement. DoD Regulation 5200.08-R requires the implementation of DBIDS
throughout DoD installations and facilities. The Director of Security in the Office of the


                                             40
Under Secretary of Defense for Intelligence has agreed to revise and remove references
to DBIDS from DoD Regulation 5200.08-R. In the draft report we address only
contractors who qualify for a PIV credential but receive a DBIDS credential―for
example, contractors who require only routine physical access to a single facility for 6
months or more and qualify for a PIV credential but are given DBIDS cards. In addition,
FIPS 201-1 states the PIV card can be used to authenticate the cardholder in a physical
access control environment.

Item 19 (page 14, “Photo Identification Requirements”)
Excerpt: The entire section.

Client Comments. “See remarks in item #10.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The audit report clearly states that this is a Navy identification badge,
and does not imply that it is a CAC. The congressional response dated October 16, 2006,
does clearly state that a CAC cannot be issued without a photo, but it makes no mention
of a religious accommodation in another way or of waiving the requirement to receive a
CAC.




                                            41
USD(I) Comments on the Findings

The Director of Security responded for the USD (I). Below are excerpts from the draft
report, comments from the USD (I), and audit responses.

Item 1 (page 4, “Automated Verification of Status”)
Excerpt: “DMDC is working . . . to establish an automated capability to verify the status
of an individual’s background check.”

Client Comments. “Concur. As part of the E-GOV initiatives, the Department is
participating in an E-clearance working group to automate and expedite submission of
SF85P electronically, and is working to find an automated capability so that the issuing
official is able to verify the status of the individual’s background check at time of PIV
issuance.”

Audit Response. We have reviewed client comments and determined report revisions
were not required.

Item 2 (page 11, “Background Checks”)
Excerpt: “However, the guidance does not address a vetting process for foreign nationals
requiring a CAC…in countries where no international security agreement has been
established, such as Afghanistan and Iraq.”

Client Comments. “Concur. The Department is working to define an acceptable vetting
process for foreign nationals requiring a CAC in countries where no international security
agreement has been established.”

Audit Response. We have reviewed client comments and determined report revisions
were not required.

Item 3 (page 5, Note to table showing DoD Employees and Contractors With Incomplete
Background Checks)

Client Comments. “Nonconcur with DMDC’s assertion that the data in JPAS is not
accurate. We would like to know basis for this assertion.”

Audit Response. In its “Update Homeland Security Presidential Directive (HSPD)-12
Implementation Plan,” January 24, 2008, DMDC included a “Special Note” on numbers
of background investigations required. The special note reads as follows:
               In an effort to improve the fidelity of the Department’s background
               investigation numbers, DoD and OPM have begun an initiative to
               analyze and reconcile over 1 million background investigation records.
               These numbers may not be an accurate reflection of the completed
               qualifying investigations and be more a reflection of the DoD JPAS
               data quality received from the Military Services and Defense Agencies.



                                                42
Item 4 (page 11, “Background Checks”)
Excerpt: “DoD Components have not met NACI background check requirements.”

Client Comments. “Partially Concur. The Department mandated the National Agency
Check with Law and Credit (NACLC) as the minimum investigation for newly accessed
service members; on 1 Oct 2005, the Army implemented this mandate for its military
accessions. As a result, a large group of earlier accessions have had the Entrance
National Agency Check (ENTNAC) conducted. Our initial assessment indicates that
conducting a NACI on all the individuals who had previously had the ENTNAC
conducted would place a great financial burden on the Army. In order to make fiscally
sound decisions, the Department supports the Army request for waiver from the
immediate HSPD-12-mandated NACI background checks until members’ current CAC
cards expire or individuals are due for periodic investigations. In the meantime, the
Department has been working to validate the number that does not meet the NACI
background check requirements. DMDC is continuing to check their database against
OPM records, as some of the individuals have had investigations conducted which are not
included in their database. Some individuals have had the NACLC conducted, which the
Department considers equivalent to the NACI. Considering the above, when the
assessment has been completed, the number who has not met NACI background check
requirements will be significantly less than initially projected and the Department can
then prioritize submission of NACI’s on the remainder.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. DMDC has reported that multiple Defense Components have
noncompliant investigation records. Any DoD Component requesting a waiver of
HSPD-12 NACI requirements should formally document the request and notify OMB.

Item 5 (page 13, “NACI Requirement”)
Excerpt: “DoD Regulation 5200.08-R . . . leaves open such questions as which DoD
entity should pay for the background checks for contractors, and what kind of
background check is required for foreign nationals.”

Client Comments. “Regarding payment for background checks for contractors:
There are clearly defined procedures governing how investigations are to be submitted to
OPM, and how these are billed and financed. Each service is responsible for submitting
and paying for investigations conducted on their contractors. (Note: This is separate and
distinct from investigations required for contractors requiring classified access. Such
investigations are submitted in accordance with the provisions of the National Industrial
Security Program, and are programmed for and funded by the Defense Security
Service.)”

Audit Response. We reviewed client comments and determined that report revisions
were not required. Guidance for non-Federal employees (contractors or vendors) who
require only routine physical access to DoD installations and who may not previously
have been subject to a background investigation should be included in the HSPD-12



                                           43
implementation guidance. It should be made clear that DoD Components are to follow
existing guidance when appropriate for each category of non-Federal employees.

Item 6

Client Comment. “Insert other appropriate references for physical security, physical
security equipment and access control authorities.

   •     DoDD 5143.01, Under Secretary of Defense for Intelligence (USD(I)), Nov 23,
         2005
   •     DoDI 5200.8, Security of DoD Installations and Resources, Dec 10, 2005
   •     DoDI 3224.3, Physical Security Equipment (PSE) Research, Development, Test,
         and Evaluation (RDT&E), Oct 1, 2007
   •     DoDD 5200.27, Acquisition of Information Concerning Persons and
         Organizations not Affiliated with the DoD, Jan 7, 1980 (policy being
         transferred/incorporated from DoD IG to USD(I)
   •     DoDD 5000.1, The Defense Acquisition System, May 12, 2003
   •     OSD 12922-05, DoD Policy for Biometric Information for Access to U.S.
         Installations and Facilities in Iraq, Jul 15, 2005.”

Audit Response. The requested references appear in the bulleted list above.




                                          44
ASD NII/CIO Comments on the Findings

The Deputy Assistant Secretary of Defense, Information and Identity Assurance
responded for the ASD(NII)/CIO. His itemized comments and our audit responses
appear below.

Item 2† (page 2, “Background”)

Client Comments. “The following three statements in this paragraph are inaccurate:
1) ‘Agencies may elect to implement HSPD-12 through either a transitional3 or an end-
point credential’. ‘Transitional’ and ‘end-point’ refer to PIV card interfaces and are not
mentioned in FIPS 201-1 or OMB 05-24. 2) ‘DoD must achieve the end-point credential
specification for all cardholders at some point’. This statement is inferred from
SP 800-73-1 and is not mentioned in the normative sections of the FIPS 201 standard. 3)
‘OMB has established October 27, 2006 as the date for issuing an initial end-point
credential by all nontransitional agencies; however, ...’ According to OMB 05-24, all
agencies begin compliance with FIPS 201, Part 2 as of October 27, 2006. Issuing PIV
cards with the end-point card interface is not a stated requirement in the normative
sections of FIPS 201. There is no milestone date published (in FIPS 201 or SP 800-73)
for ‘Legacy’ PKIs to issue PIV cards with the end-point interface. Recommend rewriting
the paragraph to accurately state the PIV card issuance and implementation requirements
as listed in FIPS 201, Part 1 & 2, and the implementation milestones published in the
OMB memo 05-24.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. As stated in FIPS 201-1, the interfaces and card architecture for
storing and retrieving identity credentials from a smart card are specified in NIST Special
Publication 800-73, “Interfaces for Personal Identity Verification,” March 2006.
NIST SP 800-73 states that a FIPS 201-1 PIV-II card specification is described in Part 3
of SP 800-73, and all agencies must ultimately comply with Part 3 in accordance with the
schedule provided by OMB in its Memorandum M-05-24.

Item 3

Client Comments. “The definition of ‘credential’ specified in the glossary of the report
is inaccurate and unreferenced. It is unclear to the reader of the report why a definition of
‘credential’ is needed in the report at this time. If a definition of credential is needed,
recommend the definition in NIST’s SP 800-63-3 ‘Electronic Authentication Guidelines’
is used. Recommend removing the footnote and the definition from the glossary.”




†
    Item 1 refers to a recommendation, rather than to the finding.


                                                       45
Audit Response. We reviewed client comments and determined that report revisions
were not required. See FIPS 201-1, Appendix F – Glossary of Terms, Acronyms, and
Notations, for the definition of “credential.”

Item 4

Client Comments. “The definition of ‘interoperability’ specified in the glossary of the
report is incomplete and unreferenced. It is unclear to the reader of the report why a
definition of ‘interoperability’ is needed in the report at this time. The PIV card will be
interoperable with Federal government physical or logical access control systems based
on compliance with the FIPS standard. Recommend removing the footnote and the
definition from the glossary.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. See FIPS 201-1, Appendix F – Glossary of Terms, Acronyms, and
Notations, and NIST 800-73-1, Section 1.3, for the definition of “interoperability.”

Item 5 (page 3, first paragraph 1)

Client Comments. “This paragraph is inaccurate and confusing. The impression left
with the reader is that DoD has failed to accomplish any of the PIV Part 1 or PIV Part 2
requirements. The term ‘strategic pause’ is not defined or explained, yet is is listed as the
reason for missing critical milestones. The term ‘HSPD-12 minimum standards’ is used
but it is not clear what minimum standards are being referenced. The word ‘transitional’
is used however there is no definition or context to provide the reader with an
understanding of its meaning. HSPD-12 is a federal directive to develop and implement a
standard identity credential. The phrase ‘DoD has not met HSPD-12 minimum standards
for its transitional program’ has no relevance to implementing required Agency actions in
Atch A, para 2b of OMB 05-24 From the paragraph, the reader is led to assume that
there is a requirement for agency’s to centrally fund HSPD-12 implementation. There is
not such requirement in HSPD-12 or the OMB-05-24. Recommend rewriting the
paragraph and conclusions based on supportable evidence. For example: DoD has not
been able to fully comply with the Agency actions (milestones) involving background
investigation, as identified in Atch A , para 3B of OMB 5-24. Failure to fully complete
these actions could delay obtaining the full benefit of having HSPD-12/FIPS 201
compliant credentials issued to all eligible DoD recipients.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The January 2008 update of the DoD HSPD-12 Implementation Plan
states that in April 2007 DoD instituted a strategic pause. The strategic pause directly
affected DoD’s ability to support HSPD-12. FIPS 201-1, parts I and II, establishes
“HSPD-12 minimum standards.” OMB required all agencies to begin issuing compliant
credentials by October 27, 2006, either through the services of GSA and the Department
of Interior or by performing this function internally. DoD’s internal transitional program
was not exempt from this requirement. DoD transitional status does allow DoD
additional time to obtain full operational capability because of the large volume of



                                             46
compliant credentials to be issued. In the report glossary, Appendix D, we have included
the definition of “transitional.” The report does not state that centralized funding is
required. However, we requested that USD(I) and USD(P&R) consider implementing
central funding.


Item 6 (page 3, paragraph 3)

Client Comments. “The fact that DMDC had to declare a ‘strategic pause’ indicates that
there was a plan to transition the existing DoD CAC issuance infrastructure to a FIPS 201
compliant configuration within the mandated timeframe. The report discounts any credit
for attempting to comply with FIPS 201 or for informing OMB of DoD’s progress toward
the milestones and the challenges that DOD encountered. In the discussion of the
‘strategic pause’ in this paragraph, recommend a fuller investigation of the reasons for the
‘strategic pause.’ Given that there was an original plan that assumedly would have
accomplished OMB milestones, the reasons for declaring a pause would be illustrative to
DoD leadership, especially if further investigation could identify occurrences of flaws in
planning, ineffective internal management, funding challenges or the indications of lack
of leadership buy-in or oversight.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. Our report discusses the impact of the strategic pause on
implementing HSPD-12 milestones, and we did not review the reasons for instituting the
strategic pause.

Item 7 (page 4, “Automated Verification of Status”)

Client Comments. “The statement ‘. . . DoD does not intend to produce identity
credentials that will include an electronic indication…’ is misleading and
unsubstantiated. It is apparently taken from a September 2006 update in the
[JANDODPLAN]. Further investigation of the most current plans for issuing the DoD’s
PIV credential would uncover that the investigation status of the DoD PIV card recipient
will be electronically distinguishable to systems interfacing with the card. The final
sentence in the paragraph leads the reader to believe that DoD has not and never intended
to comply with this FIPS 201 Part II requirement. The discussion of Auto Verification
Status in this paragraph appears to be quite limited and does not give any indication of
the enormity of the task required to make IT systems from disparate Federal Agencies
(i.e. DoD, DSS, OPM, FBI) electronically communicate, the cost, time and manpower it
takes to initiate required investigations of employees or “CAC eligible” contractors or the
lead time and development risks involved with restructuring the CAC issuance
infrastructure. Establishing an electronic mechanism to check the investigation status of
a credential recipient at the time of credential issuance, in real time, continues to be a
formidable challenge and one that is continuing to be pursued. Recommend this
paragraph be removed from the report.”




                                            47
Audit Response. We reviewed client comments and determined that report revisions
were not required. The updated January 2008 DoD HSPD-12 Implementation Plan did
not update the status of the NACI indicator, and we were not provided with information
to the contrary.

Item 8 (page 4, “Deadlines for Completion of Background Checks”)

Client Comments. “This paragraph gives no indication about how the failure to comply
with the stated OMB milestones impacts either the effectiveness of DoD’s HSPD-12
implementation, the quality and security of the PIV credential or DoD employee’s ability
to interoperate with physical access or logical IT systems. The impression left with the
reader is that DoD has failed to accomplish this requirement and that has left DoD with a
worthless and non-functional credential. Recommend this paragraph is rewritten to
provide some ‘leadership relevant’ information. A discussion of the immediate and
longer term impacts of the failure to initiate appropriate background investigations needs
to be included in this paragraph. For instance, Can the milestone failure be viewed as a
‘symptom’ of the Department’s lack of strong centralized management or funding of the
HSPD-12 mandate?, poor coordination between DoD organizations?, or lack of DoD
leadership emphasis at the highest levels?”

Audit Response. We reviewed client comments and determined that report revisions
were not required. We reported that DoD did not meet the OMB deadline of October 27,
2007, for background checks for employees and contractors employed for less than 15
years. DoD should assess the impact and take the necessary management steps to comply
with HSPD-12.

Item 9 (page 5, “Privacy Requirements”)

Client Comments. “The Privacy Requirements (PrivRqmts) section of the report makes
no mention of any of the privacy related requirements mentioned in OMB memo 05-24 or
FIPS 201. Neither does the report identify the extent to which the DoD’s implementation
has accomplished compliance with HSPD-12 privacy requirements. While it may be in
the purview of the DODIG to mention other privacy related issues involving the content
or topology of the HSPD-12 credential, to have only discussion of the findings and
shortcomings of the DoD SSN reduction effort in the PrivRqmts section of the HSPD-12
report is confusing to the reader and does not provide a clear tie between DoD’s Geneva
Convention Identification Card, the Common Access Card or DoD’s PIV-compliant
credential. The applicability and impacts of SSN reduction on the HSPD-12 requirement
is left to the reader to figure out. The finding stated in the 2nd to last sentence of
paragraph 10, ‘The current appearance of DoD’s Geneva Convention credential
unnecessarily compromises....,’ is an unsubstantiated and unsupported assertion and
should be removed from the report. This statment is inappropriate for this report without
an investigation of what are the topographical requirements for a Geneva Conventions
Card and why is DoD’s Geneva Conventions card currently produced with this
information. Recommend separating the discussion and findings regarding the DoD SSN
reduction effort into a separate section of this report with a descriptive section heading



                                            48
that is distinct from a HSPD-12/PIV privacy discussion. Recommend the SSN reduction
section include specific discussion that identifies the relationship between the DoD
Geneva Convention Identification Card, the DoD CAC and DoD’s PIV compliant
credential and why the advance of technology has created vulnerabilities by exposing the
SSN and other PII on identification credentials.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The USD(P&R) is taking the necessary actions to address privacy
concerns with the next-generation PIV-related Geneva Conventions credential. For
additional information, see USD(P&R) comments, Appendix C, Item #5.


Item 10 (page 6, “DoD PIV PKI Authentication Certificate”)

Client Comments. “The PKI PMO decided to develop a fourth DoD PKI certificate to
meet PIV requirements because modifying existing DoD PKI certificates presented
unacceptable operational impacts to the DoD PKI. As a legacy PKI (defined in section
5.4.4 of FIPS 201), DoD has lobbied agressively and gained NIST’s acceptance of
proposed FIPS 201 changes that would allow legacy PKIs to continue to assert Legacy
PKI policy OIDs [object identifiers]. Alternative acceptable OIDs will not materially
affect the the security characteristics or interoperable use of the PIV issued PKI
certificates and provides legacy PKIs, such as DoD, with much needed clarity on the
implementation of the PIV standard. However, NIST has not as yet made the change to
FIPS 201 for unrelated reasons. DoD’s inability and unwillingness to make adjustments
to the DoD PKI Certificate Policy to align with the Federal Common Policy are based on
specific, unacceptable impacts to DoD missions and operations. In an effort to
compromise and be able to become fully PIV compliant with the FIPS in the future, DoD
requested two changes to the Federal Common Policy. The Federal PKI Policy Authority
has acknowledged the rationale for and accepted the changes in principle, but has not as
yet voted on the requested changes. A vote must come from the full Federal PKI Policy
Authority. This issue is now out of the control of DoD. The 2nd to last sentence in
paragraph 14 is a misquote from the [JANDODPLAN] (page 11). This misquoted
sentence, ‘DoD plans to use common policy object identifiers in the PIV PKI
authentication certificate only one year after FIPS is revised to meet DoD objections’,
comes from the Sept 2006 update regarding the optional Digital Signature certificate, not
the PIV Authentication. In the misquoted sentence the word ‘only’ is inserted giving the
reader the impression that DoD intends to assert the FedCommon Policy OIDs for a
single year. All actions and decisions made by DoD regarding compliance with the FIPS
requirements for the PIV Auth [authentication] certificate have been within its purview
and with the intention of becoming fully PIV compliant at some point in the future. With
this in mind, recommend these paragraphs are rewritten to include a discussion of DoD
PKI efforts regarding the PIV Auth certificate requirement and a review and
consideration of the justification for those efforts as stated in the [JANDODPLAN].”

Audit Response. We reviewed client comments and determined that report revisions
were not required. We reported that proposed changes have been submitted to the



                                           49
Federal PKI Policy Authority for approval but that no date has been established for
consideration of the two modifications. Further, we have received no indication that the
changes will be promulgated in policy. We did not use the phrase “for only 1 year.” We
used “only 1 year” to emphasize that DoD will not assert Common Policy object
identifiers until 1 year after FIPS 201-1 or Common Policy is modified.


Item 11 (page 11, “DoD Component Implementation Efforts”)

Client Comments. “The 1st sentence in the paragraph, ‘HSPD-12 requires that access to
Federal facilities or information systems be granted only to Federal employees and
contractors with secure and reliable credentials.’, does not accurately paraphrase direction
stated in either HSPD-12 or OMB 05-24 regarding use of standard identity credentials to
access facilities or information systems. In HSPD-12 and OMB 05-24, direction states
that personnel (both government employees and eligible contractors) will use the
standard credential for physical and logical access to Federal resources. These references,
however, do not restrict access to Federal facilities or Federal Information systems to
only holders of a PIV-compliant credential. Recommend rewriting the paragraph to
restate the HSPD-12 and OMB direction more accurately.”

Audit Response. We reviewed client comments and have edited “HSPD-12 requires that
access to Federal facilities or information systems be granted only to Federal employees
and contractors with secure and reliable credentials.” The sentence now reads: “HSPD-
12 requires that access to Federal facilities or information systems be granted to Federal
employees and contractors based on secure and reliable forms of identification that meet
the Federal standard established by the Secretary of Commerce.”

Item 12 (page 11, “DoD Component Implementation Efforts and Background Checks”)

Client Comments. “The 2nd sentence in paragraph 3 is inaccurate and misleading. A
more accurate phrasing of the issue would be to say that the percent of completion of the
task (OMB 05-24, Atchmt A, para 3.B) to initiate the NACI background investigations
for current DoD civilian employees, military members and eligible contractors varys
between the Components. In the first sentence of paragraph 4, it has to be assumed by the
reader that the report is again refering to the same OMB 05-24 task. Lack of accurate
references called out in the report make it difficult to understand the relevance and
meaning of statements in the report. Recommend rewriting the report to include relevant
references to all HSPD-12, FIPS 201 or OMB established requirements. These
requirements are the basis for determining DoD’s compliance or consistency and should
be clearly identified.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. The second sentence of paragraph 3 on page 11 is accurate and not
misleading. OMB Memorandum M-05-24, Attachment A, Table 2B, states that by
October 27, 2007, agencies are to verify and/or complete required background




                                            50
investigations for all current employees and contractors employed less than 15 years.
DoD failed to meet the requirement.

Item 13 (page 12, “DBIDS Credentials”)

Client Comments. “The finding in this paragraph is unsubstaniated and inaccurate.
Empirical or anecdotal evidence is not provided to corroborate the finding. Issuance of a
physical access only credential to contractor personnel with a routine requirement for
only physical access to facilities is allowed under the OMB 05-24,Atchmt A, para 1.C.
DBIDS cards should not have been issued to DoD employees in lieu of the CAC. If this
did happen, it should have been noted as a procedural error and corrected as soon as
noted. Recommend removing this paragraph from the report.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. We disagree that issuance of a physical-access-only credential to
contractor personnel with a routine requirement for only physical access to facilities is
allowed under OMB Memorandum M-05-24, Attachment A, paragraph 1.C. This
paragraph states that HSPD-12 applies to “individuals under contract to a department or
agency requiring routine access to federally controlled facilities and/or federally controlled
information systems to whom you would issue Federal agency identity credentials, consistent
with your existing security policies” and “does not apply to individuals under contract to a
department or agency, requiring only intermittent access to federally controlled facilities.”

Item 14 (page 13, “DBIDS Credential and Physical Access Control System”)

Client Comments. “This paragraph misrepresents the referenced direction from
DoD Regulation 5200.08-R. From how this paragraph is worded, the reader is led to
believe that 5200.08-R directs that all DoD employees and contractors authorized routine
physical access to a single installation should be issued a DBIDS card in lieu of a CAC.
While it is conceded that para C.3..3.2 in DoD 5200.08-R applies to personnel with only
single installation access requirements and there may be DoD employees that only need
access to a single federal facility to perform their job, it should recognized that
DoD 5200-08-R does not override the requirement to issue a CAC to all DoD employees.
Recommend removing this paragraph from the report.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. DoD Regulation 5200.08-R states that the DBIDS card shall be issued
and authorized for routine, physical access to a single DoD installation or facility. The
Regulation does not specify the category of employees or contractors to receive the
DBIDS card. OUSD(I) has agreed to remove paragraph C3.3.2. in its entirety.


Item 15 (page 13, “DBIDS Credential and Physical Access Control System”)

Client Comments. “The DBIDS access control system and the accompying DBIDS
credential was never intended to be a PIV compliant credential and therefore should not
have comply with the full gamut of PIV Part I or II requirements. To a lesser assurance


                                             51
level than asserted by the CAC or a PIV-compliant credential, the DBIDS credential, due
to its registration and issuance process, can adeqately verify the claimed identity of
individuals seeking access to facilities. Even though it was developed prior to FIPS 201,
the DBIDS credential issuance incorporates elements of two of the four PIV Part I control
objectives, (i.e. rapidly authenticated electronically and issued by accredited and
authoritative credential providers). Recommend removing these paragraphs from the
report.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. USD(I) has responsibility for DoD physical access control policy and
has stated that DoD Regulation 5200.08-R will be revised to require all electronic access
control systems to meet HSPD-12 and OMB guidance.

Item 16 (page 14, “Photo Identification Requirements”)

Client Comments. “The discussion in these paragraphs has more to do with a lack of
Department internal controls over credentialing processes than compliance with OMB
05-24, HSPD-12 or FIPS 201. The situation, as described is regrettable and does point
out the interrelated nature of credentialing, access control and proofing and vetting of
personnel. Recommend separating the discussion regarding issuance of a photoless ID
prior to HSPD-12 into a separate section of this report. The section should also inform
DoD leadership of the critical need to synchronize identity related activities across the
Department under an Identity Management Principal Staff Assistant.”

Audit Response. We reviewed client comments and determined that report revisions
were not required. We agree that DoD leadership should be informed of the critical need
to coordinate identity-related activities across the Department.




                                            52
Appendix D. Glossary
1) Access Control - The process of granting or denying specific requests: 1) obtain and
use information and related information processing services; and 2) enter specific
physical facilities (e.g., Federal buildings, military establishments, border crossing
entrances).

2) Certificate Revocation List - A list of revoked public key certificates created and
digitally signed by a certification authority.

3) Credential - Evidence attesting to one’s right to credit or authority; in this standard, it
is the PIV card and data elements associated with an individual that authoritatively bind
an identity (and, optionally, additional attributes) to that individual.

4) Common Policy - Policy framework governing the Public Key Infrastructure (PKI)
component of the Federal Enterprise Architecture. The policy framework incorporates
six specific certificate policies: a policy for users with software cryptographic modules, a
policy for users with hardware cryptographic modules, a policy for devices, a
high-assurance user policy, a user authentication policy, and a card authentication policy.

5) End-point - Status granted to agencies without a smart card program; has all the
elements required for PIV compliance.

6) Federal Bridge Certification Authority - Consists of a collection of Public Key
Infrastructure components (Certificate Authorities, Directories, Certificate Policies and
Certificate Practice Statements) that are used to provide peer to peer interoperability
among principal entity certification authorities.

7) Interoperability - allows any Government facility or information system, regardless of
the PIV issuer, to verify a cardholder’s identity using the credentials on the PIV card; the
use of PIV identity credentials such that client-application programs, compliant card
applications, and compliant integrated circuit cards can be issued interchangeably by all
information-processing systems across Federal agencies.

8) National Agency Check (NAC) - The NAC is part of every NACI. Standard NACs are
Security/Suitability Investigations Index, Defense Clearance and Investigation Index, FBI
Name Check, and FBI National Criminal History Fingerprint Check.

9) National Agency Check with Inquiries (NACI) - The basic and minimum investigation
required on all new Federal employees; consists of a NAC with written inquiries and
searches of records covering specific areas of an individual’s background during the past
5 years (inquiries sent to current and past employers, schools attended, references, and
local law enforcement authorities). Coverage includes employment, 5 years; education, 5
years and highest degree verified; residence, 3 years; references; law enforcement, 5
years; and NACs.



                                              53
10) NextUpdate - Time required by the Common Policy to update the Certificate
Revocation List.

11) Object Identifiers - A specialized formatted number that is registered with an
internationally recognized standards organization, the unique alphanumeric/numeric
identifier registered under the ISO registration standard to reference a specific object or
object class. In the Federal PKI, object identifiers are used to uniquely identify certificate
policies and cryptographic algorithms.

12) PIV end-point applet - program that will allow the end-point scanners and readers to
read and retrieve end-point information from the DoD PIV credential. This is DoD’s
solution to comply with HSPD-12 interoperability requirements.

13) PIV authentication certificate - shall be an asymmetric private key supporting card
authentication for an interoperable environment; is mandatory for each PIV Card.

14) Public Key Infrastructure (PKI) - A support service to the PIV system that provides
the cryptographic keys needed to perform digital signature-based identity verification and
to protect communications and storage of sensitive verification system data within
identity cards and the verification system.

15) Transitional - Status granted to agencies with smart card programs as an intermediate
step; transitional credential is not end-point compliant.




                                             54
Appendix E. List of Acronyms and
   Abbreviations
ASD(NII)/CIO   Assistant Secretary of Defense for Networks and Information
                       Integration/DoD Chief Information Officer
ASD            Assistant Secretary of Defense
AOR            Area of Responsibility
CAC            Common Access Card
CIOs           Chief Information Officers
CI&S           Counterintelligence and Security
CONUS          Continental United States
CRL            Certificate Revocation List
DASD(IIA)      Deputy Assistant Secretary of Defense (Information and Identity
                       Assurance)
DBIDS          Defense Biometrics Identification System
DHRA           Defense Human Resource Agency
DHS            Department of Homeland Security
DLA            Defense Logistics Agency
DLAI           Defense Logistics Agency Instruction
DMDC           Defense Manpower Data Center
DoD            Department of Defense
DoDD           Department of Defense Directive
DoDI           Department of Defense Instruction
DoD IG         Department of Defense Inspector General
DSCP           Defense Supply Center Philadelphia
DSS            Defense Security Service
DTM            Directive Type Memorandum
E-GOV          Electronic Government
ENTNAC         Entrance National Agency Check
EUCOM          European Command
FBI            Federal Bureau of Investigation
FIPS           Federal Information Processing Standards
FPCON          Force Protection Condition
FY             Fiscal Year
GAO            Government Accountability Office
GSA            General Services Administration
HSPD-12        Homeland Security Presidential Directive-12
ID             Identification
IOC            Initial Operational Capability
IT             Information Technology
JANDODPLAN     January 2008 DoD Implementation Plan
JPAS           Joint Personnel Adjudication System
JTF-GNO        Joint Task Force Global Network Integration
NAC            National Agency Check


                                   55
NACI        National Agency Check with Written Inquiries
NACLC       National Agency Check with Law and Credit
NIPRNET     Non-Classified Internet Protocol Router Network
NIST        National Institute of Standards and Technology
NSA         Naval Support Activity
OCONUS      Outside Continental United States
OIDs        Object Identifiers
OMB         Office of Management and Budget
OPM         Office of Personnel Management
OSD         Office of the Secretary of Defense
OUSD(I)     Office of the Under Secretary of Defense for Intelligence
OUSD(P&R)   Office of the Under Secretary of Defense for Personnel and
                    Readiness
PACs        Physical Access Controls
PACOM       Pacific Command
PII         Personally Identifiable Information
PIV         Personal Identity Verification
PKI         Public Key Infrastructure
PMO         Program Management Office
PSAs        Principal Staff Assistants
RAPIDS      Real-time Automated Personnel Identification System
RSA         Rivest, Shamir, and Adleman
SSN         Social Security Number
USD(AT&L)   Under Secretary of Defense for Acquisition, Technology, and
                    Logistics
USD(I)      Under Secretary of Defense for Intelligence
USD(P)      Under Secretary of Defense for Policy
USD(P&R)    Under Secretary of Defense for Personnel and Readiness




                                56
Under Secretary of Defense for Personnel and Readiness
Comments




                   Click to add JPEG file




                                  57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
                           Final Report
                            Reference




                         page 1




Click to add JPEG file



                         page 4




               61
                         Final Report
                          Reference




Click to add JPEG file




               62
                           Final Report
                            Reference




                         page 15




                         page 16




Click to add JPEG file



                         page 16




               63
                           Final Report
                            Reference




                         page 16




                         page 16




Click to add JPEG file




                         page 17




                         page 17




               64
                           Final Report
                            Reference




                         page 17




                         page 17
Click to add JPEG file

                         pages 17, 18




               65
                           Final Report
                            Reference




                         pages 18, 19




Click to add JPEG file




               66
Under Secretary of Defense for Intelligence Comments




                   Click to add JPEG file




                                  67
Click to add JPEG file




               68
Click to add JPEG file




               69
Click to add JPEG file




               70
                           Final Report
                            Reference




Click to add JPEG file



                         page 15




               71
                           Final Report
                            Reference




                         page 17




Click to add JPEG file




               72
Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer
Comments




                    Click to add JPEG file




                                   73
Click to add JPEG file




               74
                           Final Report
                            Reference




Click to add JPEG file
                         page 53




               75
Click to add JPEG file




               76
Click to add JPEG file




               77
                           Final Report
                            Reference




Click to add JPEG file


                         page 15




                         page 15




               78
                           Final Report
                            Reference




                         page 16




Click to add JPEG file   page 17




                         pages 17, 18




               79
                           Final Report
                            Reference




                         pages 18,19




                         page 22




Click to add JPEG file




               80
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Donald A. Bloomer
Kathryn Truex
Robert R. Johnson
Celia J. Harrigan
Gloria Young
Bradley M. Heller
Giormary Peluyera
LeBarron Durant
Bryan T. Clark
Xavier R. Zayas
Allison E. Tarmann
